<html>
<title> - THE ADMINISTRATION'S CLIMATE PLAN:</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





                   THE ADMINISTRATION'S CLIMATE PLAN:
                           FAILURE BY DESIGN

=======================================================================


                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           September 17, 2014

                               __________

                           Serial No. 113-94

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov
       
       
                                   ______
                                   
                       U.S. GOVERNMENT PUBLISHING OFFICE 

92-327 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001      
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              ROBIN KELLY, Illinois
KEVIN CRAMER, North Dakota           KATHERINE CLARK, Massachusetts
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS COLLINS, New York
BILL JOHNSON, Ohio

                            C O N T E N T S

                           September 17, 2014

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    11
    Written Statement............................................    11

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    12
    Written Statement............................................    14

                               Witnesses:

The Honorable John Holdren, Director, Office of Science and 
  Technology Policy, Executive Office of the President
    Oral Statement...............................................    15
    Written Statement............................................    18

Ms. Janet McCabe, Acting Assistant Administrator, Office of Air 
  and Radiation, U.S. Environmental Protection Agency
    Oral Statement...............................................    42
    Written Statement............................................    44

Discussion.......................................................    51

             Appendix I: Answers to Post-Hearing Questions

The Honorable John Holdren, Director, Office of Science and 
  Technology Policy, Executive Office of the President...........    88

Ms. Janet McCabe, Acting Assistant Administrator, Office of Air 
  and Radiation, U.S. Environmental Protection Agency............    98

            Appendix II: Additional Material for the Record

Article submitted by Representative Eddie Bernice Johnson, 
  Ranking Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................   106

Article submitted by Representative Suzanne Bonamici, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................   113

Articles submitted by Representative Eric Swalwell, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   118

Letters submitted by Representative Donna F. Edwards, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................   121

 
                   THE ADMINISTRATION'S CLIMATE PLAN:

                           FAILURE BY DESIGN

                              ----------                              


                     WEDNESDAY, SEPTEMBER 17, 2014

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 10:04 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Lamar Smith 
[Chairman of the Committee] presiding.

[GRAPHIC] [TIFF OMITTED] 

    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order. Welcome to today's hearing 
titled ``The Administration's Climate Plan: Failure by 
Design.'' I am going to recognize myself for an opening 
statement and then the Ranking Member.
    Today we look at one of the most aggressive new government 
programs in our country's history. The Obama Administration 
calls it the Climate Action Plan. It empowers the Departments 
of Interior, Energy, Agriculture, Defense, Transportation, 
Housing and Urban Development, Health and Human Services, 
National Institute of Standards and Technologies, NOAA, FEMA, 
the U.S. Army Corps of Engineers, and the EPA to implement 
broad climate policies and programs with great cost and little 
benefit to the American people.
    The cornerstone of the White House sweeping Climate Action 
Plan is EPA's power plant regulation. Extending well beyond the 
power plants themselves, this rule will increase the cost of 
electricity and the cost of doing business. It will make it 
harder for the American people to make ends meet. In fact, 
EPA's own data shows us that its power plant regulation would 
eliminate less than one percent of global carbon emissions. 
Analysis shows this would reduce sea-level rise by the 
thickness of a mere three sheets of paper, at best. EPA's 
mandates will be difficult for states to meet even under ideal 
circumstances. If energy prices or energy demands escalate, the 
costs of meeting those mandates will soar and American families 
will be forced to pay the bill.
    Charles McConnell, a former Assistant Secretary for Energy 
appointed by President Obama, has taken the Administration to 
task for creating a plan doomed to fail. In a recent op-ed, Mr. 
McConnell asks, ``Have we lost our minds? Has this 
administration convinced itself that it can mandate something 
that is fundamentally useless? Does the EPA think the American 
public and global community are not capable of seeing the 
illusion for what it is?''
    What is clear is that by eliminating affordable, reliable 
power options, the regulation will increase the energy prices 
for the majority of Americans. That means everything will cost 
more, from electricity to gasoline to food. Higher costs will 
drive companies out of business, kill good jobs, and leave even 
more Americans unemployed.
    Until this Administration can propose a detailed strategy, 
tell us the total cost, and show us exactly what we will get 
for the sacrifice, we are just asking the American people to 
waste their money. America cannot afford to drive its economy 
over a cliff with the hopes that the rest of the world will 
make the same mistake. The only economy the EPA's plan will 
help is that of our competitors.
    [The prepared statement of Mr. Smith follows:]

             Prepared Statement of Chairman Lamar S. Smith

    Today we look at one of the most aggressive new government programs 
in our country's history. The Obama Administration calls it the Climate 
Action Plan.
    It empowers the Departments of Interior, Energy, Agriculture, 
Defense, Transportation, Housing and Urban Development, Health and 
Human Services, National Institute of Standards and Technologies, NOAA, 
FEMA, the U.S. Army Corps of Engineers, and the EPA to implement broad 
climate policies and programs with great cost and little benefit to the 
American people.
    The cornerstone of the White House sweeping Climate Action Plan is 
EPA's power plant regulation. Extending well beyond the power plants 
themselves, this rule will increase the cost of electricity and the 
cost of doing business. It will make it harder for the American people 
to make ends meet. In fact, EPA's own data show us that its power plant 
regulation would eliminate less than one percent of global carbon 
emissions. Analysis shows this would reduce sea level rise by the 
thickness of a mere three sheets of paper.
    EPA's mandates will be difficult for states to meet even under 
ideal circumstances. If energy prices or energy demand escalate, the 
costs of meeting those mandates will soar and American families will be 
forced to pay the bill.
    Charles McConnell, a former Assistant Secretary for Energy 
appointed by President Obama, has taken the Administration to task for 
creating a plan doomed to fail. In a recent op-ed, Mr. McConnell asks, 
``Have we lost our minds? Has this administration convinced itself that 
it can . mandate something that is fundamentally useless? Does the EPA 
think the American public and global community are not capable of 
seeing the illusion for what it is?''
    What's clear is that by eliminating affordable, reliable power 
options, the regulation will increase the energy prices for the 
majority of Americans. That means everything will cost more--from 
electricity to gasoline to food. Higher costs will drive companies out 
of business, kill good jobs, and leave even more Americans unemployed.
    Until this Administration can propose a detailed strategy, tell us 
the total cost, and show us exactly what we will get for the 
sacrifice--we are just asking the American people to waste their money. 
America cannot afford to drive its economy over a cliff with the hopes 
that the rest of the world will make the same mistake. The only economy 
the EPA's plan will help is that of our competitors.

    Chairman Smith. And that concludes my opening statement. 
The Ranking Member, the gentlewoman from Texas, Ms. Johnson, is 
recognized for hers.
    Ms. Johnson. Thank you very much, Mr. Chairman, and good 
morning to all.
    I would like to extend a warm welcome to our witnesses, Dr. 
Holdren and Ms. McCabe, and thank both of you for being here 
this morning. It is nice to see you again, and I appreciate you 
taking time to appear before us today.
    This morning we are going to discuss the President's 
Climate Action Plan and a part of that plan, a proposal by the 
Environmental Protection Agency to cut carbon emissions from 
the largest source of those emissions: power plants.
    I would like to begin by noting the title given to this 
morning's hearing by my Republican colleagues, ``The 
Administration's Climate Plan: Failure by Design.'' ``Failure 
by design'' is an ironic choice of words considering my 
colleagues' preferred alternative appears to be doing nothing 
and hiding our collective heads in the sand. We all know that 
such inaction will not solve anything, and it doesn't--it 
certainly won't stop the Earth from warming, and in my opinion, 
the Majority's ``do nothing'' plan is a real example of failure 
by design.
    I also know that some still question whether climate change 
is real, but surely we are now beyond debating that question. 
Reports based on the work of the world's top scientists such as 
the U.S. National Climate Assessment and those from the U.N. 
Intergovernmental Panel on Climate Change have sent a stark 
message to our nation's leaders and the international 
community, namely, the adverse effects of climate change are 
evident today and require immediate action or these adverse 
effects will grow dramatically worse.
    To be fair, in trying to understand a phenomenon of this 
magnitude, the job of science will never be done. It will 
continue to evolve. We must always keep looking for new 
answers, replacing opinions with data, and projections with 
observations. We must continue to innovate in how we predict, 
measure, prevent, and adapt to climate change. That is the 
nature of science and of our stewardship to this planet.
    However, we in Congress have to acknowledge that we are not 
the experts and that allowing partisan politics to distort 
scientific understanding of climate change is cynical and 
shortsighted. We may not agree on where the uncertainties 
within climate science lie but we should all be able to 
understand that vast and avoidable uncertainties will remain if 
we stop the progress of climate research.
    Experts from industry, academia, and every level of 
government are calling on us to help prepare our communities 
for the threats they face due to climate change. We must answer 
their call and act.
    Cutting carbon emissions from the power sector is critical 
to any effort to address climate change, and that is why I am 
supportive of the EPA's Clean Power Plan. EPA's proposal, like 
the rest of the President's Climate Action Plan, is a bold step 
forward our Nation needs. It gives states the flexibility to 
develop innovative policies that cater to regional differences. 
It is based on strategies already in use such as improving 
energy efficiency and encouraging the development of 
renewables.
    Let us be clear: EPA is not imposing a specific set of 
measures. States will choose what goes into their plans and 
they can work alone or as part of a multi-state effort to 
achieve meaningful reductions. These are commonsense steps that 
will lead to a healthier environment, because acting on climate 
change is not only an environmental imperative, but a public 
health and economic one as well.
    Among the many health concerns, greater risk of asthma 
attacks, heat stroke, and respiratory disease are all 
consequences of a warming climate. Likewise, energy demand, 
agricultural production, labor productivity, and the risks to 
coastal properties are just a few of the economic areas where 
climate change has already taken, and will continue to take, 
its toll.
    We as a Nation must act today to address climate change if 
we are to preserve our quality of life for our children and 
grandchildren. The negative consequences of climate change are 
not abstract scientific predictions for the far-off future. We 
are facing some of these consequences now and they are 
affecting every American.
    I look forward to working with this Administration as it 
puts forward policies like the Clean Power Plan and the Climate 
Action Plan, which will ensure a vibrant future economy and a 
safe and healthy environment.
    Thank you, Mr. Chairman, and before and I yield back, I 
want to share that there is an article from ThinkProgress.org 
that I would like to submit to the record. While some in 
Congress still refuse to admit that climate change is even 
happening, there is evidence here where this article describes 
how eight major food companies have accepted the reality of 
climate change and are prepared to address the threats posed to 
their products and financial interests: Chipotle, Green 
Mountain, Michael Foods, Big Hard Pit brands, Omega Protein, 
Marine Harvest ASA, and most notably, Heinz and Coca-Cola. To 
quote the beverage titan: ``Changing weather patterns along 
with the increase frequency or duration of extreme weather 
conditions could impact the availability or increase the cost 
of key raw materials that the company uses to produce its 
products. In addition, the sales of these products can be 
impacted by weather conditions.''
    I ask unanimous consent that this article be included in 
the record.
    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Ranking Member Eddie Bernice Johnson

    Thank you, Mr. Chairman. I'd like to extend a warm welcome to our 
witnesses, Dr. Holdren and Ms. McCabe. Thank you both for being here 
this morning. It is nice to see you again and I appreciate you taking 
the time to appear before us today. This morning we are going to 
discuss the President's Climate Action Plan and a part of that plan, a 
proposal by the Environmental Protection Agency to cut carbon emissions 
from the largest source of those emissions--power plants.
    I'd like to begin by noting the title given to this morning's 
hearing by my Republican colleagues, ``The Administration's Climate 
Plan: Failure by Design.'' ``Failure by design,'' is an ironic choice 
of words considering my colleagues' preferred alternative appears to be 
doing nothing and hiding our collective heads in the sand. We all know 
that such inaction will not solve anything, and it certainly won't stop 
the Earth from warming. In my opinion, the Majority's ``do nothing'' 
plan is the real example of ``failure by design.''
    I also know that some still question whether climate change is 
real, but surely we are now beyond debating that question. Reports 
based on the work of the world's top scientists such as the U.S. 
National Climate Assessment and those from the U.N. Intergovernmental 
Panel on Climate Change have sent a stark message to our nation's 
leaders and the international community, namely: the adverse effects of 
climate change are evident today and require immediate action or these 
adverse effects will grow dramatically worse.
    To be fair, in trying to understand a phenomenon of this magnitude, 
the job of science will never be done. It will continue to evolve. We 
must always keep looking for new answers, replacing opinions with data, 
and projections with observations. We must continue to innovate in how 
we predict, measure, prevent, and adapt to climate change. That is the 
nature of science and of our stewardship of the planet.
    However, we in Congress have to acknowledge that we are not the 
experts, and that allowing partisan politics to distort the scientific 
understanding of climate change is cynical and shortsighted. We may not 
agree on where the uncertainties within climate science lie, but we 
should all be able to understand that vast and avoidable uncertainties 
will remain if we stop the progress of climate research.
    Experts from industry, academia, and every level of government are 
calling on us to help prepare our communities for the threats they face 
due to climate change. We must answer their call and act.
    Cutting carbon emissions from the power sector is critical to any 
effort to address climate change, and that is why I am supportive of 
the EPA's Clean Power Plan. EPA's proposal, like the rest of the 
President's Climate Action Plan, is the bold step forward our nation 
needs. It gives states the flexibility to develop innovative policies 
that cater to regional differences. It is based on strategies already 
in use such as improving energy efficiency and encouraging 
thedevelopment of renewables.
    Let us be clear: EPA is not imposing a specific set of measures. 
States will choose what goes into their plans and they can work alone 
or as part of a multi-state effort to achieve meaningful reductions. 
These are common-sense steps that will lead to a healthier environment, 
because acting on climate change is not only an environmental 
imperative, but a public health and economic one as well.
    Among the many health concerns, greater risk of asthma attacks, 
heat stroke, and respiratory disease are all consequences of a warming 
climate. Likewise, energy demand, agricultural production, labor 
productivity, and the risks to coastal properties are just a few of the 
economic areas where climate change has already taken, and will 
continue to take, its toll.
    We as a nation must act today to address climate change if we are 
to preserve our quality of life for our children and grandchildren. The 
negative consequences of climate change are not abstract scientific 
predictions for the far-off future. We are facing some of these 
consequences now and they are affecting every American. I look forward 
to working with this Administration as it puts forward policies like 
the Clean Power Plan and the Climate Action Plan, which will ensure a 
vibrant future economy and a safe and healthy environment. Thank you, 
and I yield back.

    Chairman Smith. Thank you, Ms. Johnson, and without 
objection, those materials will be a part of the record, though 
I think you have just succeeding in reading almost all of it 
into the record already.
    Ms. Johnson. That is okay.
    Chairman Smith. We will get a double dip on that.
    [The information appears in Appendix II]
    Chairman Smith. I will now proceed to introduce our 
witnesses, and we do appreciate their being here today.
    Our first witness is the Honorable John Holdren. Dr. 
Holdren serves as the Director of the Office of Science and 
Technology Policy at the White House, where he is both the 
Assistant to the President for Science and Technology and Co-
Chair of the President's Council of Advisors on Science and 
Technology called PCAST. Prior to his current appointment by 
President Obama, Dr. Holdren was a Professor in both the 
Kennedy School of Government and the Department of Earth 
Science at Harvard. Before that, he was a member of the faculty 
at the University of California Berkeley, where he found and 
led a graduate degree program in energy and resources. Dr. 
Holdren graduated from MIT with degrees in aerospace 
engineering and theoretical plasma physics.
    Our second witness is Ms. Janet McCabe, Acting Assistant 
Administrator for the Office of Air and Radiation at the 
Environmental Protection Agency. Previously, she was the Office 
of Air and Radiation's Principal Deputy to the Assistant 
Administrator. Prior to joining the EPA, Ms. McCabe was the 
Executive Director of Improving Kids' Environment Inc., a 
children's environmental health advocacy organization. She also 
previously served in several leadership positions in the 
Indiana Department of Environmental Management's Office of Air 
Quality. Ms. McCabe received both her undergraduate degree and 
law degree from Harvard.
    Again, we thank you for being here today, and Dr. Holdren, 
we will begin with you.

                TESTIMONY OF HON. JOHN HOLDREN,

       DIRECTOR, OFFICE OF SCIENCE AND TECHNOLOGY POLICY,

               EXECUTIVE OFFICE OF THE PRESIDENT

    Dr. Holdren. Thank you very much, Chairman Smith, Ranking 
Member Johnson, Members of the Committee. I am genuinely 
pleased to be here today to discuss the ways that the Federal 
Government has incorporated and continues to incorporate 
scientific information from the most authoritative sources into 
the formulation and implementation of all three components of 
President Obama's Climate Action Plan, cutting carbon pollution 
in America, preparing the United States for the impacts of 
climate change and leading international efforts to address the 
global climate change challenge.
    Given the thrust of my testimony and noting Ranking Member 
Johnson's comments on the title of the hearing, I would like to 
propose respectfully an alternative one: The Administration's 
Climate Plan: Success through Science.
    That plan rests primarily on scientific and technological 
understandings in three categories: first, the natural science 
of anthropogenic climate change and its impacts on human well-
being; second, technological analysis of the options for 
climate change mitigation and for increasing preparedness for 
and resilience against the changes in climate that mitigation 
fails to avoid; and third, the economics associated with 
estimating both the costs of action and the costs of inaction 
on the climate change challenge.
    There is an immense amount of peer-reviewed research in all 
three categories. An assessment summarizing the state of 
knowledge in all three have been carried out by a wide variety 
of respected national and international bodies. Examples 
include the reviews by the U.S. National Academies and the 
Intergovernmental Panel on Climate Change, the second and third 
U.S. National Climate Assessments, the annual State of the 
Climate reports of NOAA, the periodic assessment reports of the 
U.S. Global Change Research Program, and the first Quadrennial 
Energy Technology Review of the U.S. Department of Energy. 
These assessments and many more were drawn up in the 
interagency effort led by the Executive Office of the 
President, which developed the elements of the Climate Action 
Plan for the President's consideration.
    A particularly accessible digest of the relevant state of 
knowledge as of early 2013 and a set of recommendations based 
on that knowledge was provided to the President and the 
interagency group in March of that year by the President's 
Council of Advisors on Science and Technology. That report's 
influence on the Climate Action Plan was considerable.
    My written statement discusses in some detail those 
conclusions from the indicated scientific assessments that were 
and are most germane to the formulation of the Climate Action 
Plan and to its implementation. Given President Obama's 
Commitment from the beginning of his Administration to the 
rigorous use of the best available scientific and technical 
information in formulating policy, it should not be surprising 
that the scientific conclusions summarized in my written 
statement are reflected across all elements of the Climate 
Action Plan and continue to underpin its implementation.
    Specifically, an up-to-date understanding of the natural 
science of anthropogenic climate change and its impacts on 
human well-being provides first, the motivation for seeking to 
develop a cost-effective plan to reduce those impacts; second, 
the sense of urgency for doing so at once rather than waiting; 
third, the understanding that such a plan must include not only 
measures to reduce the emissions that are driving global 
climate change but also measures to increase preparedness for 
and resilience against the climate changes that can no longer 
be avoided; fourth, the detailed knowledge of the sources of 
the offending emission and the character of society's 
vulnerabilities that allows appropriate specificity in 
designing a plan; and fifth, the recognition that any U.S. plan 
must include a component designed to bring other countries 
along. These are the most basic underpinnings of the Climate 
Action Plan.
    Further, an up-to-date understanding of technological 
possibilities for both mitigation and preparedness and 
resilience reveals that there indeed exists a wide range of 
options for cutting the carbon pollution that is driving 
climate change and for better preparing society to deal with 
the changes that materialize. The available technical insights 
about these options have enabled the Climate Action Plan to 
focus specifically on enabling and incentivizing progress on 
the implementation and, where necessary, the further 
development of the most promising options.
    Finally, an up-to-date understanding of the results of 
economic assessments of the cost of taking actions of these 
kinds versus the cost of inaction provides the confidence that 
moving ahead now is the right thing to do, and more 
specifically, has provided the basis for the Climate Action 
Plan's focus on those options that are most clearly cost-
effective and that bring significant co-benefits.
    Because the Climate Action Plan focuses only on the low-
hanging fruit that is within reach without action by Congress, 
the costs of implementing it will be relatively low and indeed 
might well be completely repaid by the co-benefits.
    Of course, there is still more that could and should be 
done beyond the Climate Action Plan that would require the 
support of the Congress. I hope that that support will be 
forthcoming.
    I thank the Committee for its interest in this critically 
important issue, and I will be pleased to take any questions 
the Members may have. Thank you.
    [The prepared statement of Dr. Holdren follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Chairman Smith. Thank you, Dr. Holdren.
    Ms. McCabe.

                 TESTIMONY OF MS. JANET MCCABE,

                ACTING ASSISTANT ADMINISTRATOR,

                  OFFICE OF AIR AND RADIATION,

              U.S. ENVIRONMENTAL PROTECTION AGENCY

    Ms. McCabe. Thank you, Chairman Smith, good morning, and 
Ranking Member Johnson and Members of the Committee. Thank you 
for the opportunity to testify today. I am very pleased to be 
here with Dr. Holdren.
    The science is clear, the risks are clear, and the high 
costs of climate inaction are clear. We must act. That is why 
President Obama laid out a Climate Action Plan and why on June 
2nd of this year, Administrator McCarthy signed the proposed 
Clean Power Plan to cut carbon pollution, build a more 
resilient Nation, and lead the world in our global climate 
fight.
    Power plants are the largest source of carbon dioxide 
emission in the United States. While the United States has 
limits in place for the level of arsenic, mercury, sulfur 
dioxide, nitrogen oxide and particle pollution that power 
plants can emit, there are currently----
    Chairman Smith. There we go. Well, we are getting there. 
There we go.
    Ms. McCabe, if you will proceed? I hope that this is fixed 
permanently. Thank you.
    Ms. McCabe. American know-how at work.
    As I was saying, while the United States currently has 
standards in place for a range of harmful pollutants that are 
emitted by power plants, there are currently no national limits 
on carbon pollution from these sources.
    The Power Plan aims to cut energy waste and leverage 
cleaner energy sources by doing two things. First, it uses a 
national framework to set achievable state-specific goals to 
cut carbon pollution per megawatt-hour of electricity 
generated. Second, it empowers the states to chart their own 
customized path to meeting their goals.
    We know that coal and natural gas play a significant role 
in a diverse national energy mix. This plan does not change 
that. It builds on actions already underway to modernize aging 
plants, increase efficiency and lower pollution, and it paves a 
more certain path for conventional fuels in a clean energy 
economy.
    The EPA stakeholder outreach and public engagement in 
preparation for this rulemaking was and continues to be 
unprecedented. Starting last summer, we held 11 public 
listening sessions around the country. We participated in 
hundreds of meetings with a broad range of stakeholders across 
the country and talked with every state. Now the second phase 
of our public engagement is underway. We have already held four 
public hearings in Atlanta, Denver, Pittsburgh and Washington, 
D.C., at which over 1,300 people testified. We have had 
hundreds of calls and meetings with states and other 
stakeholders, and we have already received more than three-
quarters of a million comments. Through meetings, phone calls 
and other outreach, we are proactively seeking input, and many 
states, utilities and other stakeholders are bringing us 
suggestions that reflect the significant and thoughtful work 
they are putting into responding to this proposal. Because of 
this strong interest, in fact, we announced yesterday that we 
are extending the comment period for an additional 45 days to 
December 1st.
    These are just the sort of discussions we need to have, and 
these are not mere words: this is a proposal we want and need 
input from the public.
    To craft the proposed state goals, we looked at where 
states are today, and we followed where they are going. Each 
state is different, so each goal, and each path, can be 
different. The goals spring from smart and sensible 
opportunities that states and businesses are taking advantage 
of right now.
    Under the proposal, the states have a flexible compliance 
path that allows them to design plans sensitive to their needs, 
including considering jobs and communities in a transitioning 
energy world. It allows them enough time--15 years from when 
the rule is final until compliance with the final target--to 
consider and make the right investments, ensure reliability, 
and avoid stranded assets.
    All told, in 2030 when states meet their goals, our 
proposal will result in about 30 percent less carbon pollution 
from the power sector across the United States when compared 
with 2005 levels. In addition, we will cut pollution that 
causes smog and soot by more than 25 percent. Together, these 
reductions will provide important health benefits to our most 
vulnerable citizens including our children.
    In 2030, the Clean Power Plan will deliver climate and 
health benefits of up to $90 billion, and because energy 
efficiency is a cost-effective strategy, we predict that in 
2030, average electricity bills for American families will be 
eight percent cheaper.
    This proposal has started an active conversation about the 
steps that states, cities, utilities and others are already 
taking to reduce carbon pollution and how about the EPA can set 
targets and a reasonable schedule that can be achieved by every 
state, using measures they choose themselves to suit their own 
needs.
    The EPA looks forward to discussion of the proposal over 
the next several months, and I look forward to your questions. 
Thank you.
    [The prepared statement of Ms. McCabe follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Chairman Smith. Thank you, Ms. McCabe.
    The gentleman from Indiana, the chairman of the Research 
and Technology Subcommittee, has a markup in another Committee 
and has to leave immediately, so I am going to recognize 
himself for questions and then I will take his place when it is 
time for him to ask questions.
    Mr. Bucshon.
    Mr. Bucshon. Thank you, Mr. Chairman.
    Over the last few years we have gone from global warming to 
now climate change since the temperature of the Earth hasn't 
changed in many, many years. The temperature of the Earth has 
been changing for centuries. I fully believe that the 
temperature of the Earth is changing. But of course, now 
supporters of this new regulation are saying well, it is 
changing now at an unusual pace compared to the past because 
now the American public is getting it that the temperature of 
the Earth has been changing for centuries.
    Ms. McCabe, first of all, welcome from Indiana. This plan 
places a heavy burden on the states. Many state legislatures 
will need to approve enabling statutes to implement the rule. 
For example, we have heard from previous witnesses that have 
come before this Committee that states will need to devise 
institutional arrangements between state public utility 
commissions and state environmental regulators to implement 
carbon-driven resource planning. Further, states will need to 
consider legislation to implement energy efficiency measures to 
meet the goals under the plan and to grant additional 
authorities to state public utility commissions on such matters 
as stranded investment and cost allocation.
    It is quite possible that certain states, for whatever 
reason, will be unable to make these steps in which case the 
state plans will be inadequate under the proposal, thus 
mandating the EPA-issued Federal Implementation Plan, or FIP.
    Can you describe for me what an FIP would look like where a 
state has failed to enact the necessary laws to carryout EPA's 
plan for them? For example, what would an EPA-imposed energy 
efficiency mandate look like and how would EPA allocate costs 
under such a mandate?
    Ms. McCabe. Congressman, thank you for your question. Let 
me first emphasize that in the plan, the proposal, we certainly 
recognize that there are steps that states will need to take in 
order to put authorities in place and design their plans, and 
we provided several years for that work to take place, assuming 
that states will be going forward with that. Many states 
already have programs in place that they will be able to use or 
build upon, and we are confident that working with the states, 
as EPA always has in implementing Clean Air Act programs, that 
we will be/able to find time and work with each other to make 
sure that states have the time they need to put authorities in 
place, and that is what we are focused on at the moment is 
making sure that we understand one another, that we hear from 
the states about the timing challenges that they expect to have 
and the things that they need to do, and we are confident that 
we will be able to move forward with states in a productive way 
so that they can be successful in developing and implementing 
their own plans.
    Mr. Bucshon. Thank you. Is it true that this rule has no 
effect on the global temperature change?
    Ms. McCabe. This rule is about cutting carbon pollution, 
and cutting carbon pollution will help address the 
contributions to the effects that we are seeing----
    Mr. Bucshon. Because we have heard previous Administrators 
from the EPA say that it won't. It is not about affecting the 
global temperature and climate change.
    Ms. McCabe. Well, I can----
    Dr. Holdren. Can I take that?
    Ms. McCabe. Sure.
    Dr. Holdren. Yeah, I would like to respond to that if I 
may.
    Mr. Bucshon. Yeah. I mean, there are public comments out 
there that that question has been asked and answered saying no.
    Dr. Holdren. You should look at the scientific literature 
rather than the public comments. The fact is----
    Mr. Bucshon. Of all the climatologists whose career depends 
on the climate changing to keep themselves publishing articles, 
yes, I could read that but I don't believe it.
    Dr. Holdren. If you would allow me to finish, the point is 
that the limitation on carbon emissions in the United States is 
a very important first step for us to take on a longer 
trajectory to meet the President's goals of a 17 percent 
reduction from 2005 by 2020, and ultimately an 80-plus percent 
reduction by 2050. If the United States does not take that sort 
of action, it is unlikely that other major emitters in the 
world--China, India, Russia, Europe, Japan--will do so either, 
and the fact is, all of us need to reduce our carbon emissions 
if we are to avoid unmanageable degrees of climate change.
    Mr. Bucshon. Okay. Fair enough.
    Ms. McCabe, there are some comments out there saying asthma 
attacks decrease, heart attacks decrease. Where do you get that 
information? Because I was a medical doctor before, and it says 
in the first year the plan will avoid 100,000 asthma attacks 
and 2,100 heart attacks. I can tell you, as a medical doctor, 
you cannot say that.
    Ms. McCabe. Well----
    Mr. Bucshon. That is just scare tactics. That is not 
factual.
    Ms. McCabe. Well, all of our information is based on 
factual information that is developed and in the record and 
available for people to comment on.
    Mr. Bucshon. And let me say I reviewed that from the 
American Lung Association. In fact, their medical director came 
down last year from New York and spoke to me about this. And is 
it true or not that it is based on actually modeling and not 
actually factual patient data?
    Ms. McCabe. There is a large body of evidence that----
    Mr. Bucshon. Is it based on computer modeling or is it 
based on factual medical data? That is the question. Yes or no.
    Ms. McCabe. EPA uses both modeling and----
    Mr. Bucshon. And is it true that the model that was created 
to do this, the EPA paid tens of thousands of dollars to the 
person to create the model to, in my view, after I have looked 
at all the science including people who funded the research--
the funders of this research that was done are all pretty far 
left global warming foundations and others that want this data 
to come out? I mean, I am just saying, it all depends. If you 
are a medical person and you look at who funds a study and the 
result of the study, I mean, I look at the first, who funded 
it, and if people that believe the result funded it, do you see 
where I am getting at?
    Ms. McCabe. Yes, Congressman----
    Mr. Bucshon. And it is all based on modeling, not on 
factual information, so I would--I just----
    Dr. Holdren. Can I take a piece of this as well?
    Mr. Bucshon. No, I am over my time so I will just say this 
and I yield back to the chairman, that scare tactics like that 
is really appalling to me to use medical information to scare 
parents that their children about asthma attacks and scare 
people saying they are going to have heart attacks and you are 
going to prevent that with this rule in the first year. That is 
just not factual. And I would argue that we should all on both 
sides of this discussion avoid scare tactics.
    I yield back, Mr. Chairman.
    Chairman Smith. Thank you, Dr. Bucshon. The gentlewoman 
from Oregon, Ms. Bonamici, is recognized.
    Ms. Bonamici. Thank you very much, Mr. Chairman. Thank you 
to both of our witnesses for appearing before us again to 
discuss this very important topic, and I am glad that my 
colleague, Mr. Bucshon, mentioned scare tactics because, Mr. 
Chairman, I have an article that I would like to submit for the 
record because we are likely to hear some arguments that the 
coal industry has used over the years to sway people against 
regulation designed to protect the environment, and so I would 
like to introduce this article, which chronicles the coal 
industry's overreactions and some exaggerated claims over the 
last 40 years.
    Chairman Smith. Without objection, the article will be a 
part of the record.
    [The information appears in Appendix II]
    Ms. Bonamici. Thank you. I hope the Committee Members read 
this article as well.
    Thank you again. I am going to begin my question in this 
hearing much the same way as I began when we held a similar 
hearing just over a month ago by briefly discussing the 
economic costs of failing to act to combat climate change for 
communities. For example, in my district in Oregon, the threat 
of climate change brings serious economic consequences to 
coastal communities with the fishing and seafood industries, 
for example, rely on a healthy ocean to support their 
livelihood. The agriculture sectors need freedom from concerns 
about drought. Changes in our climate brought on by record-high 
carbon emission causes economic concern. Many Fortune 500 
companies are now building the economic realities of climate 
change into their long-term business plans. Insurance companies 
are starting to account for the increased frequency of severe 
weather events. These things are happening, and it is up to us 
as policymakers to act now to mitigate the damage.
    So Dr. Holdren, first of all, thank you for your very 
thorough testimony. I do encourage Members of the Committee to 
read your entire written testimony, which is very thorough and 
detailed. We are here today to ostensibly discuss the science 
behind the EPA regulations, and because some people question 
whether the EPA is considering the economic impact of its 
regulations, can you please expand on the potential economic 
benefits of reducing greenhouse gas emissions through rules 
like the recently proposed rule limiting emissions from 
existing power plants?
    Dr. Holdren. Thank you. I am happy to do that. There is 
some considerable discussion of that in my rather lengthy 
written statement, but the fact is that we are facing under 
unabated continuation of global climate change large increases 
in damages from a wide variety of extreme weather events 
including, in some regions, floods, in other regions, droughts, 
in many regions, more extreme heat waves, in many regions, more 
wildfires, pest outbreaks, pathogen spread in terms of 
geographic range. We are looking at impacts on many sectors of 
the economy on the energy sector, the forestry sector, the 
agriculture sector, the fishery sector. We are looking at 
increases in ocean acidification that have the potential to 
dramatically change ocean food chains and fisheries 
possibilities, and we are looking, as already mentioned, at 
human health effects, and I would mention, although Dr. Bucshon 
has now left, that the models that are used in this domain are 
all based on data. They are based on patient data. They are 
based on epidemiological studies, and there is a wide range of 
models, not a single model. They have been funded by a wide 
range of sources, and the findings in the National Climate 
Assessment, which came out in May, on the impacts of climate 
change on health were thoroughly vetted by experts at the 
National Institutes of Health----
    Ms. Bonamici. Thank you, Doctor. I do want to have time for 
one quick question.
    Dr. Holdren. Sorry.
    Ms. Bonamici. But thank you for that clarification.
    On a related note, I want to follow up on something that 
was discussed in our July hearing. Dr. Cash from the 
Massachusetts Department of Environmental Protection stated 
that EPA's latest action will ``help the Nation develop an 
advanced energy infrastructure.'' So can you please both 
comment briefly on the importance of having the United States 
lead the way in the development and implementation of the next 
generation of energy policies and talk about whether the 
existence of rules will foster innovation by creating demand 
for new technologies.
    Ms. McCabe. I will take a start at it. This is another 
example of how regulations will spur innovation and development 
of new technologies. In particular, what we found when we 
looked at what the power sector and states were already doing 
to address carbon is that they were investing in renewable 
energy and moving that forward. They were investing in energy 
efficiency and moving that forward, and there is huge 
opportunities in addition to other sorts of technologies for 
this plan to spur even greater investment in those sorts of 
technologies and move them into all across the country and into 
the mainstream.
    Ms. Bonamici. And I trust you would both agree with me that 
we would prefer that the United States be the leader in 
developing these technologies.
    Ms. Bonamici. Absolutely.
    Dr. Holdren. I would just add and emphasize that countries 
all around the world are buying renewable-energy technologies, 
they are buying energy-efficiency technologies, they are buying 
cleaner fossil-fuel technologies. They are going to be buying a 
lot more of them because it is recognized all around the world 
that climate change is real and we need to do something about 
it, and we will be far better off if the United States is the 
principal provider of those technologies in the decades ahead 
than if we allow other countries to take the lead in that 
domain.
    Ms. Bonamici. Thank you. My time is expired. I yield back. 
Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Ms. Bonamici.
    The gentleman from California, Mr. Rohrabacher, is 
recognized for his questions.
    Mr. Rohrabacher. Thank you very much, and thank you for 
being with us today.
    I--let me just note about the last point, yeah, we do have 
countries like Spain investing in other types of technology for 
producing energy and it is breaking their bank. It is putting 
them into bankruptcy.
    There is just a list of things that just--note that this is 
a matter of contention that I would think the public should 
look at, whether or not there actually has been 17 years where 
there has been no warming, although that was what was 
predicted. I keep seeing reports saying that there are no more 
hurricanes than there always have been or they are not more 
extreme than they ever were.
    We have climate models obviously that have been presented 
us that we were going to have a huge jump in our temperature 
that were clearly wrong. The Arctic ice volume now is 
increasing rather than decreasing, as is the population of the 
polar bears increasing rather than decreasing, and we have seen 
an increase in plant growth and crop yields. Let me--so those 
are just matters.
    Back-and-forth with those people who believe that humankind 
and our activities are changing the climate and those of us who 
don't, we need to know whether those specific issues--what the 
facts show on those things because I keep hearing disagreement 
from those who would like to pass regulations like the ones we 
are talking about today.
    Ms. McCabe, at what point--you keep using the word carbon 
pollution----
    Ms. McCabe. Um-hum.
    Mr. Rohrabacher. --at what point--level of CO<INF>2</INF> 
does CO<INF>2</INF> become damaging to human health?
    Ms. McCabe. Well, carbon----
    Mr. Rohrabacher. Right now, we have CO<INF>2</INF> at about 
400 parts per million.
    Ms. McCabe. Um-hum.
    Mr. Rohrabacher. At what point does that actually become 
harmful to human beings?
    Ms. McCabe. I will let Dr. Holdren amplify my answer, but 
it is clear that the amount of carbon that is being emitted----
    Mr. Rohrabacher. No, no, I am asking for a specific number. 
You guys are the experts. You are here telling us to pass what 
we consider to be a draconian regulation. You should know at 
what point it becomes harmful to human health. If it is now at 
400 parts per million--Dr. Holdren, maybe you have the answer 
to that--at what level does it become harmful to human beings?
    Dr. Holdren. Vice Chairman Rohrabacher, I always enjoy my 
interactions with you. I have to say, with respect, that is a 
red herring. We are not interested in carbon dioxide 
concentrations because of their direct effect on human health. 
We are interested in them because their effect--of their 
affect----
    Mr. Rohrabacher. All right.
    Dr. Holdren. --on the world's climate, and climate change 
has effects----
    Mr. Rohrabacher. So it is a red herring----
    Dr. Holdren. --on human health.
    Mr. Rohrabacher. Okay. So it is a red herring to say that 
when people are talking about human health that there is no 
direct impact on human health, that this is something----
    Dr. Holdren. Not of CO<INF>2</INF> concentration. There is 
a direct----
    Mr. Rohrabacher. All right. All right.
    Dr. Holdren. --there are very strong and direct impacts----
    Mr. Rohrabacher. Okay.
    Dr. Holdren. --and there is a strong direct effect----
    Mr. Rohrabacher. Strong indirect, okay.
    Dr. Holdren. --and there is a strong direct effect----
    Mr. Rohrabacher. So let's go----
    Dr. Holdren. --on the co-emitted pollutants----
    Mr. Rohrabacher. So let's go for the record----
    Dr. Holdren. --like oxides or sulfur and black carbon----
    Mr. Rohrabacher. So let's go for the record that you have 
now agreed there is no direct impact on human health by 
CO<INF>2</INF> concentration----
    Dr. Holdren. And a huge indirect impact.
    Mr. Rohrabacher. And at what time--I guess we will say you 
are not even going to go--because the next level higher is 
going to go to us--how long will it take us to get to the point 
where it does actually impact human health?
    And I will just put in for the record that it seems--it is 
at 400 parts per million now and between 1,000 to 2,000 parts 
is what we pump into greenhouses and it is commonly accepted 
that it takes about 20,000 parts per million as differentiated 
from the 400 parts per million now that we have before it 
becomes harmful to human health, unless of course you want to 
say that those things that we just--that I just outlined are 
real, that there has actually been warming, that the models 
have been successful, that the Arctic ice now is not growing, 
and the population of the polar bears is continuing to 
diminish, and et cetera, et cetera. So, yeah----
    Dr. Holdren. May I respond?
    Mr. Rohrabacher. You certainly may.
    Dr. Holdren. First of all, there is a long section in my 
testimony explaining that the so-called hiatus in global 
warming is not what you have portrayed it to be. It is a 
slowdown in the rate of increase of the atmospheric surface 
temperature from what occurred in previous decades. The fact 
is, even by that index, the Earth is still warming. The 2000s 
were warmer than the '90s, the 2010s so far have been warmer 
than the 2000s, 13 of the 14 hottest years in the instrumental 
record going back 150 years----
    Mr. Rohrabacher. Right.
    Dr. Holdren. --have occurred since 2000.
    Mr. Rohrabacher. Okay. And let's----
    Dr. Holdren. And it is also true----
    Mr. Rohrabacher. Okay.
    Dr. Holdren. --that in terms of the Arctic ice in volume 
and in area at any given time of year it continues to be on a 
shrinking trajectory, although of course there is natural 
variability that bounces it up and down a bit----
    Mr. Rohrabacher. But you----
    Dr. Holdren. --but the trend is unmistakable.
    Mr. Rohrabacher. But you will acknowledge that there are 
many scientists--and by the way, I want to congratulate both of 
you because last time you were both here independently when we 
tried to pin down this fraud of 97 percent of all the 
scientists agree that manmade global warming is now upon us, 
you both refused to back up that fraudulent claim and I applaud 
you for that.
    Let me just note that when we are talking about these 
issues--the very issues that we brought up, there are 
legitimate scientists--this isn't just a claim here at the 
hearing--there are legitimate scientists on both of these 
issues, on both sides of the various issues that you and I just 
brought up, and I think that it behooves us not to just suggest 
that, well, this is what the fact is.
    I think that what we should all do is compare the various 
scientific facts that are coming in and not just dismiss all of 
the scientists who are claiming that no, the polar bears are 
not disappearing and no, there are not more hurricanes, there 
are not more tornadoes, there are not more, say, critical 
weather situations going on. I think those issues need to be 
looked at with an open mind and that both sides can look at it 
scientifically.
    Thank you very much.
    Chairman Smith. Thank you, Mr. Rohrabacher.
    The gentlewoman from Illinois, Ms. Kelly, is recognized for 
her questions.
    Ms. Kelly. Thank you, Mr. Chair.
    Ms. McCabe, as you likely are aware, critics of this and 
virtually any other EPA proposed rule often claim that the 
economy and the American consumer will suffer as a result of 
efforts to make our environment cleaner and safer. More ``the 
sky is falling'' attitude toward actions that will protect the 
health of Americans is contradicted by the fact that the U.S. 
economy has tripled in size since the adoption of the Clean Air 
Act in 1970, which you know. One of the concerns often raised 
is that the Clean Power Plan will cause residential electricity 
prices to increase dramatically. Can you comment on that? Is 
that the case? And can you please describe the estimated impact 
that the proposed rule will have on Americans' electricity 
bills?
    Ms. McCabe. Absolutely. Thank you for the question.
    Ms. Kelly. Coming from Illinois, it is very important.
    Ms. McCabe. Yes, yes, for me, too. Yes, this is an issue 
that we look at in our regulatory impact assessment, which was 
put out with the proposed rule. We did take a look at the 
anticipated impacts on electricity bills, and because of the 
strong emphasis that we expect from states in looking at energy 
efficiency as a very clear and obvious and cost-effective 
approach, our analysis predicts that electricity bills for 
American families will go down by 2030 by about eight percent, 
and that is a good thing for all of us because you get the 
improved environment, you get the pollution reduction of other 
pollutants that come along with the carbon that will have 
immediate impacts on people in their neighborhoods and improve 
their health, and you also, through the increased use of energy 
efficiency, will get lower electric bills.
    Ms. Kelly. Where do you feel that your doubters or critics 
are getting their information from?
    Ms. McCabe. I don't know that I can speak to that, 
Congresswoman. People do the analyses that they choose to do. 
What we appreciate is the transparent and public process that 
we have during this proposal so that people can bring whatever 
analyses they have to us and everybody can take a look at that 
and we can work through it.
    Ms. Kelly. Okay. Thank you very much. I yield back.
    Chairman Smith. Thank you, Ms. Kelly.
    I now recognize myself for questions next.
    And, Dr. Holdren, let me direct my first question to you. 
The EPA says that its regulations will reduce carbon dioxide 
emissions by about 555 million tons per year in 2030. That same 
year, Department of Energy is projecting that China alone will 
emit about 14 billion tons of carbon dioxide every year. That 
means that after this costly and in my view burdensome rule is 
implemented, it will offset only 13 days of Chinese carbon 
dioxide emissions and of course much less of the total world's 
emissions. And I want to focus on the impact of the rule. We 
will get to the impact on other countries in a second. But 
would you agree that the impact of the rule when and if 
implemented would have a negligible impact on climate change?
    Dr. Holdren. As I have already said, this rule is a start. 
The Climate Action Plan is a start. If we do not make a start, 
we will never get to the kinds of reductions----
    Chairman Smith. Right.
    Dr. Holdren. --that we need. But by the way, we will never 
get there without the Congress' help.
    Chairman Smith. Right.
    Dr. Holdren. It is one of the reasons I feel happy to be 
here.
    Chairman Smith. What impact would this rule have on global 
temperatures, for example?
    Dr. Holdren. A small impact if we neglect the leadership 
role that the United States plays in the world.
    Chairman Smith. And----
    Dr. Holdren. I have just been traveling around the world 
talking to leaders----
    Chairman Smith. I am going to get to the----
    Dr. Holdren. --of other countries----
    Chairman Smith. I am going to get to the leadership 
question----
    Dr. Holdren. --and they are appreciative----
    Chairman Smith. --in just----
    Dr. Holdren. --of what we are doing.
    Chairman Smith. Dr. Holdren, let me finish. I am going to 
get the leadership question in a minute but I want to get to 
the impact of this rule on climate change. You said it would 
have a very small impact on global temperatures. What about its 
impact on the rise in sea levels?
    Dr. Holdren. That impact will also be small. And again, it 
is necessary to start or we will be cooked and flooded.
    Chairman Smith. I understand. I just want to make sure that 
everybody understands the impact of the rule on climate change 
is going to be small, I would say negligible given what I have 
said.
    And as far as our leadership role goes, to me that is 
totally hypothetical and speculative. You have got China today 
building on the average I think of one new coal-fed power plant 
every week and I don't think these other countries are going to 
have much of an incentive to follow anybody's lead if it is 
going to cost them more money and damage their economy. But I 
am glad to have your answers on the small impact on climate 
change.
    Dr. Holdren. Can I answer the other point about our 
leadership----
    Chairman Smith. Well----
    Dr. Holdren. --and about China----
    Chairman Smith. I think----
    Dr. Holdren. --and about India?
    Chairman Smith. I think you already have today a couple of 
times, but I would like to go to Ms. McCabe, and then if we 
have time come back to that. The question--as I say, to me the 
impact on other countries is hypothetical.
    Ms. McCabe, let me ask you some of these same questions, 
but on the way there you said a minute ago that the rule is 
about cutting out carbon pollution. The EPA Administrator, your 
boss, said when she testified before the Senate that this is 
not about pollution control. Why the contradiction in your 
statement and the Administrator's statement?
    Ms. McCabe. Well, I am not familiar with exactly what 
statement you are referring to. She may have been talking about 
the fact that there are technologies that would not be 
considered the traditional pollution control----
    Chairman Smith. Right.
    Ms. McCabe. --types of technologies that----
    Chairman Smith. Okay.
    Ms. McCabe. --are available to reduce----
    Chairman Smith. If----
    Ms. McCabe. --carbon----
    Chairman Smith. On the surface it looks like they are 
contradictory statements but we will look for another 
explanation.
    Let me go back and ask you some of the same questions I 
just asked Dr. Holdren. What impact will this rule have on 
global temperatures? Is it going to be small, is it going to be 
great, is it going to be--what?
    Ms. McCabe. Well, I certainly would defer to Dr. Holdren on 
the science questions. I would agree with him that the impacts 
of any single action will be small, but it takes many small 
actions to make a difference on this global problem.
    Chairman Smith. Right. And the impact would be small on 
global temperatures and the impact would be small on any sea 
level rise as well, would it not?
    Ms. McCabe. Again, it takes many, many actions----
    Chairman Smith. I know but the answer----
    Ms. McCabe. --to make the difference.
    Chairman Smith. --to my question is that it would be a 
small impact and you would agree with Dr. Holdren?
    Ms. McCabe. I would agree.
    Chairman Smith. Okay. Thank you both very much. You have 
answered my questions.
    And we will now go to the gentleman from California, Mr. 
Swalwell, for his questions.
    Mr. Swalwell. Thank you, Mr. Chairman.
    And first, I just want to start with Dr. Holdren. Dr. 
Holdren, we heard a little bit about scare tactics earlier, but 
I wasn't around in 1970 when the Clean Air Act was passed. I 
came on the scene about ten years later. But when the Clean Air 
Act was passed, everything I have read was that there were a 
number of scare tactics from industry around what it would do 
to our economy. Do you remember that?
    Dr. Holdren. I do.
    Mr. Swalwell. And----
    Dr. Holdren. I do.
    Mr. Swalwell. And one of the scare tactics was that we 
would see our economy, rather than move forward, that the 
economy would move backwards. Do you remember that?
    Dr. Holdren. I do.
    Mr. Swalwell. And isn't it true that in fact our economy 
has tripled in size since the Clean Air Act was passed in 1970?
    Dr. Holdren. I think that is roughly right. I would have to 
double-check the figure.
    Mr. Swalwell. And isn't it true that pollutants have been 
reduced by 70 percent since the Clean Air Act was passed in 
1970?
    Dr. Holdren. At least many of the important ones have.
    Mr. Swalwell. Okay. Did you read the New York Times story 
over the weekend on Germany's solar and wind investments?
    Dr. Holdren. I did.
    Mr. Swalwell. Do you believe that the United States is any 
less capable than Germany in making investments in solar and 
wind? And what would it mean for reducing carbon emissions if 
we made investments that would have us have 30 percent of our 
energy supplied by renewables, as Germany is on track to do by 
the end of the year?
    Dr. Holdren. We are not technically less capable. We may be 
politically less capable of taking the necessary decisions.
    Mr. Swalwell. And what would it do for our Climate Action 
Plan if, over the next 15 years, we achieved what Germany is 
going to achieve by the end of this year, which is having 30 
percent of its energy provided by renewables?
    Dr. Holdren. It would obviously be a great help.
    Mr. Swalwell. Okay. And, Ms. McCabe, do you have any 
thoughts on that?
    Ms. McCabe. No, I would just confirm that we think 
increased use of renewable energy is going to be a key portion 
of states' plans that they can choose to develop. So I would 
agree.
    Mr. Swalwell. Also, Dr. Holdren, many have mentioned that 
even if we do something, that other countries--some of the 
bigger countries, China and India, if they do nothing, that our 
efforts could be negligible. However, don't we have some 
recourse to enforce or require other countries to take action? 
For example, can't nations that are being responsible--that are 
not being responsible in addressing this global threat be 
slapped with a WTO complaint tariff?
    Dr. Holdren. Let me say that at this point I don't----
    Mr. Swalwell. Sorry, WTO compliant tariff.
    Dr. Holdren. I think at this point we don't need to talk 
about recourse because the fact is that both China and India, 
the second and third biggest emitters in the world, are both 
taking far more action than most Americans realize. The Chinese 
in their 12th five-year plan put a target for reducing the 
percentage--a target for increasing the percentage of non-
fossil fuel in primary energy consumption. We, by the way, have 
not done that. We don't have any non-carbon or low carbon 
energy standard. China has set specific national targets for 
the expansion of nuclear, wind, solar, and natural gas. They 
have a carbon intensity target, which they are on track to 
meet. They have minimum energy efficiency standards across a 
wide range of appliances and vehicles.
    Mr. Swalwell. And, Dr. Holdren----
    Dr. Holdren. And they have been shutting down their old 
coal-burning power plants----
    Mr. Swalwell. I appreciate you bringing that up because----
    Dr. Holdren. --and replacing them with more efficient ones.
    Mr. Swalwell. --I want to put into the record if it is okay 
with the Chair two stories that backup what Dr. Holdren is 
saying, one, a September 12, 2014, story, ``China Aims High for 
Carbon Market by 2020,'' and also a May 7, 2014, story, ``India 
Goes Green, Drafts Policy to Lower Carbon Emissions.''
    Chairman Smith. Without objection, those two articles will 
be made part of the record.
    [The information appears in Appendix II]
    Mr. Swalwell. Thank you, Mr. Chair.
    So I think the question that we are tasked with today is do 
something or do nothing, and as far as I am concerned, plan 
always beats no plan, especially when the stakes are so high. 
And so I guess I would challenge my colleagues on the other 
side if they want to do nothing, why don't we go ahead and 
build a do-nothing climate wall. We can put it somewhere out on 
the Washington Mall and we can put all the names of the people 
who think that we should do nothing, and then in 100 years we 
can let our children and grandchildren go to that wall and see 
who wanted to do nothing and who wanted to do something. And I 
hope we did something and we will let history be the judge of 
what happens next.
    Mr. Rohrabacher. Will the gentleman yield for a question?
    Mr. Swalwell. And I yield back the balance of my time.
    Mr. Rohrabacher. Would the gentleman yield for a question?
    Mr. Swalwell. I yield back.
    Chairman Smith. The gentleman has yielded back.
    Thank you, Mr. Swalwell, and we will now go to the 
gentleman from Ohio, Mr. Johnson, for his questions.
    Mr. Johnson. Thank you, Mr. Chairman. Thank you, folks, for 
joining us today.
    Ms. McCabe, I would like to start out, you acknowledged in 
agreement with Dr. Holdren that the rule would have a small 
impact in the climate spectrum. Do you also view the thousands 
of jobs and the economic impacts of these rules on the American 
people as small impacts?
    Ms. McCabe. We--Congressman, we take very seriously any 
expected impacts on the economy when we consider our rules----
    Mr. Johnson. Well, you know, the experts are saying, Ms. 
McCabe--you know, I represent a district in Ohio that has six 
coal-fired power plants; I have got roughly 15,000 or so coal 
industry-related jobs. If these rules go forward, those jobs 
are going to be forfeited. So my question to you is do you view 
those as small impacts?
    Ms. McCabe. I think that any job concerns to a community 
are significant and need to be paid attention to. This rule 
is----
    Mr. Johnson. Are they acceptable to you?
    Ms. McCabe. This rule is being written in the context of a 
transitioning energy system, and----
    Mr. Johnson. Let's talk about that for a second. 
Transitioning energy position, you know, during this past 
winter the polar vortex, the cold snap, many coal-fired power 
plants that are slated to retire were running at over 90 
percent capacity. In Ohio I have heard the experts say that we 
were one coal-fired power plant away from rolling brownouts and 
blackouts. And I am already getting manufacturers today that 
are being asked to idle their manufacturing plants because 
there is not enough energy on the grid.
    So how would the grid have performed this past winter and 
how high would have wholesale prices risen if the coal-base-
load of power plants scheduled to close over the next two 
years, if they were not available this past winter? What does 
your analysis reveal about that? You take all that power off 
the grid, how would that have affected the price for energy 
this past winter?
    Ms. McCabe. The Clean Power Plan envisions that in 2030, 30 
percent of----
    Mr. Johnson. I am not talking about 2030; I am talking 
about last winter. How would it have affected the wholesale 
prices if that energy had not--that you are planning to take 
off the grid, if it had not been available? How would it have 
affected wholesale prices?
    Ms. McCabe. EPA is not planning to take any power off the 
grid. This plan would allow states to develop plans and we see 
that energy reliability would not be compromised under the plan 
as we have devised it.
    Mr. Johnson. Okay. Well, the states have a different view 
of that I think. Let me ask you this, then, talking about the 
states. You know, explain it to me then how you intend to 
approve or disapprove of a state plan if the state submits a 
plan that has a different baseline than those that are set out 
in the proposed rule because the EPA's generation mix for 2012 
doesn't include all the utilities that usually operate, for 
example, they were shut down that year or they did not operate?
    Ms. McCabe. Um-hum.
    Mr. Johnson. Will the EPA disapprove a state plan that sets 
a different reduction target than what the Agency requires in 
the proposed rule because it failed to include a utility that 
did not operate in 2012?
    Ms. McCabe. This is why our rulemaking has a public process 
with opportunities for people to give us information. We want 
to make sure that the targets that we ultimately finalize are 
accurate and correct and based on correct information, and we 
are in those discussions with states every day now to make sure 
that we have that right information.
    Mr. Johnson. Okay. Dr. Holdren, and--during--you talked 
about success through science in your opening statement this 
morning. Last July, Steve McConnell, the former Assistant 
Secretary for Energy until last year, now at Rice University, 
testified before this committee that the relationship between 
the DOE and the EPA was really disingenuous interagency 
collaboration and simply a box-checking exercise. Further, it 
was an awkward--he said it was an awkward dance because very 
often the inconvenient truths of technical evaluations didn't 
fit the political agenda and that made it very difficult to 
actually have any collaboration, and in fact, as time went, on 
the communication became almost zero.
    Mr. McConnell gave an insightful example of where EPA's 
idea of checking the box on a 650-page technical document to 
the Department of Energy at 3:00 p.m. on a Friday afternoon 
that EPA told him they had to respond back by 10:00 a.m. on 
Monday.
    So you are in charge of scientific and technical 
cooperation between departments and agencies. Is this how the 
Obama Administration makes technical decisions that will cost 
the American taxpayers billions of dollars? Is this what you 
call success through science? Or is it simply a political 
agenda to shut down coal-fired power plants across the country?
    Dr. Holdren. It is certainly not a political agenda to shut 
down coal-fired power plants, and as you know--as I believe you 
know, under the Climate Action Plan, coal would still be 
providing 30 percent of U.S. electricity at the end of--at the 
period in 2030.
    But in terms of interagency cooperation, of course we want 
and we encourage interagency cooperation. I am responsible for 
the oversight of activities and initiatives that involve the 
cooperation of multiple agencies. We work hard at getting that 
to happen. I think it is happening. I think both EPA and DOE 
currently have not only very capable but very collaborative 
leaders in Secretary Moniz and Administrator McCarthy. I have 
seen them working closely together. I have seen the process of 
collaboration. I am not sure what happened when----
    Mr. Johnson. All right. Well, let me--my time is almost 
expired so let me ask Ms. McCabe then.
    Mr. Rohrabacher. [Presiding] There is----
    Mr. Johnson. Will you----
    Mr. Rohrabacher. Your time has expired--more than expired. 
Thank you.
    And----
    Mr. Johnson. I yield back.
    Mr. Rohrabacher. --now, Ms. Edwards.
    Ms. Edwards. Thank you very much, Mr. Chairman.
    And, Dr. Holdren, and to both of our witnesses, thank you 
very much for being here.
    I think that we could not be dealing with any more 
important issue than this discussion right here and we need to 
get off the dime on the politics because we are losing ground 
every single day.
    And I would like to ask the Chairman, I have an article 
from the Washington Post that just appeared a couple of days 
ago that highlights the impact--the potential impact to 
flooding from storm surge that would threaten D.C.--the 
District of Columbia infrastructure. And I would note it is a 
shame that Mr. Swalwell is no longer here and he has left 
because I would tell him that if he were going to build that 
wall on the Mall, he should choose a different place because it 
will be underwater.
    And so with that, Mr. Chairman, I would like to enter this 
article from the Washington Post appearing September 16 into 
the record.
    Mr. Rohrabacher. Without objection.
    [The information appears in Appendix II]
    Ms. Edwards. Thank you.
    Dr. Holdren, as we have just indicated, you know that our 
coastal communities are a major contributor to the U.S. economy 
that supports maritime commerce and shipping ports, fishing, 
tourism. I know Maryland has a great benefit to our economy 
because of our coast and our Chesapeake Bay. And all of these 
areas are highly vulnerable to the threat of sea level rise.
    In addition, in the Maryland Chesapeake Bay, the five 
states that comprise the watershed, that there is a lot of 
farmland there, too, and so in addition to the economy that 
takes place on the water, there is the economy just bordering 
the water that really threatens us. The third National Climate 
Assessment asserts that more than a trillion dollars of coastal 
property and infrastructure is at risk of inundation from a sea 
level rise of 2 feet above the current level. Can you outline 
the potential impact a 2 foot rise in sea level would have on 
the American economy?
    Dr. Holdren. Well, let me say a couple of things about 
that. One is that is quite extensively analyzed in the National 
Climate Assessment that came out in May. The second point is 
that the first phase of the Climate Data Initiative, which is 
part of the President's Climate Action Plan, and the first 
phase of the Climate Resilient Toolkit, which will be rolled 
out shortly, are both focused on providing more detailed data 
on the consequences of sea level rise of various levels on 
infrastructure and on the economy.
    And so while we already have rough accounts of how 
devastating sea level rise in that magnitude would be, we will 
soon have better ones and we will have tools that will enable 
people on the coast all around the country to understand, 
anticipate, prepare for, and plan for the amounts of sea level 
rise that are likely to occur in their areas.
    Ms. Edwards. Dr. Holdren, just to follow that up, I recall 
that just a couple of months ago there was another article--I 
think it was either in the New York Times or Washington Post--
that talked about particular impacts in the Virginia Beach and 
Norfolk area to our military facilities. And in fact, as part 
of our military readiness and planning, they have tried to 
accommodate for that kind of rise. We put billions of dollars 
into structuring and restructuring, rebuilding our ports to 
accommodate our military bases and facilities because our 
Department of Defense actually does believe that there is a 
tremendous impact of climate change contributing to sea level 
rise.
    Has there been an assessment of the threat to our defense--
our national defense and military readiness?
    Dr. Holdren. There have been a number of reports by the 
Pentagon and by consultants to the Pentagon on the impacts of 
climate change on national security, and I would refer you to 
those. You are absolutely right, Congresswoman Edwards, that 
the Pentagon recognizes very clearly that climate change is a 
big challenge for our military and for our national security.
    Ms. Edwards. Thank you very much. And just to be clear, 
though, when we are thinking about the impact to the economy on 
our coastal communities, do we have a rough estimate--is there 
a rough estimate of how much of the population just on the two 
coasts, the Atlantic and the Pacific, that is attributed to--
that would be impacted by sea level rises?
    Dr. Holdren. I am just in the process of looking up a 
number--excuse me. I am just in the process of looking up the 
number in the National Climate Assessment. There is an estimate 
in there of what fraction of the U.S. population lives at 
various heights above current sea level. I don't recall it off 
the top of my head.
    Ms. Edwards. Let's just say it is a boatload of people, 
right?
    Dr. Holdren. I would be happy to get back to you with a 
quantitative answer on that.
    Ms. Edwards. Great. Thank you very much for your testimony.
    Mr. Rohrabacher. Thank you very much.
    Mr. Bridenstine.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    When the President was campaigning in 2008 he was 
interviewing with the San Francisco Chronicle and they asked 
him--quite infamously they asked him, you know, are you going 
to shut down coal-fired power plants? And his response was, 
well, no, I am not going to shut them down; we will increase 
regulations to the point where it is so expensive, they won't 
be able to stay in business. I would like to ask each of you, 
do you agree with the President's philosophy on that?
    Dr. Holdren. Well, first of all, I am sure the Resident no 
longer agrees with it. Whatever he said in 2008, he----
    Mr. Bridenstine. So that is not the President's philosophy?
    Dr. Holdren. It is not the President's philosophy.
    Mr. Bridenstine. Okay. That is good.
    Dr. Holdren. The President is not trying to----
    Mr. Bridenstine. So you don't agree with it? Yes or no, you 
don't agree with it?
    Dr. Holdren. I don't agree with the statement as you just 
presented it----
    Mr. Bridenstine. Okay.
    Dr. Holdren. --that the President----
    Mr. Bridenstine. Ms. McCabe?
    Dr. Holdren. --apparently said in 2008, and he doesn't 
either.
    Ms. McCabe. Absolutely, we don't agree.
    Mr. Bridenstine. Okay. So has he recanted that or retracted 
it or apologized for suggesting that?
    Dr. Holdren. The National Climate Plan makes very clear--
Climate Action Plan makes very clear that we do not intend to 
shut down coal-fired power plants, and it is the President's 
plan. So I say he is absolutely clear on the record on that and 
he has said it in a number of recent speeches as well.
    Mr. Bridenstine. Okay. Chuck McConnell is the Executive 
Director of the Energy and Environment Initiative at my alma 
mater, Rice University. He is a former Assistant Secretary of 
Energy and this Administration, and he testified before this 
committee about the environmental impacts of the 
Administration's carbon plan that you have just mentioned, or 
rather the lack of the impact of the environmental plan. He 
says that the reductions in emissions resulting from these 
rules will account for less than 1/100th of 1 degree Celsius 
drop in temperatures. Do you guys agree with that?
    Dr. Holdren. I don't agree with it for the reasons I have 
already stated, namely, we are beginning a process that is 
going to lead to further reductions.
    Mr. Bridenstine. No, no, no, no, this rule--no, no----
    Dr. Holdren. This rule alone----
    Mr. Bridenstine. Do you agree with that statement, 1/100th 
of 1 degree Celsius?
    Dr. Holdren. I would have to look--have to review the 
number before I----
    Mr. Bridenstine. These are your models.
    Dr. Holdren. --before I subscribe to a particular----
    Mr. Bridenstine. These aren't my models; these are your 
models and--now, he also suggested----
    Dr. Holdren. I will be happy to review the number and get 
back to you----
    Mr. Bridenstine. Sir, this is my time----
    Dr. Holdren. --but the point is this is a start.
    Mr. Bridenstine. Sir, I am asking the questions here. He 
also suggested that it would increase sea levels by 1/3 of the 
width of a dime over 30 years. Do you agree with that 
assessment?
    Dr. Holdren. Again, I will get back to on the specific 
numbers but the assessment is irrelevant. We are starting a 
process which is going to require larger emissions reductions 
going forward----
    Mr. Bridenstine. By China? We need larger----
    Dr. Holdren. Oh, absolutely we do and China is already on 
that pathway as well.
    Mr. Bridenstine. Oh, I----
    Dr. Holdren. And in some respects they are ahead of us.
    Mr. Bridenstine. I am glad to hear that China is on board 
with our plan because they weren't on board with our plan when 
we wanted to protect international waters in the South China 
Sea, were they?
    Dr. Holdren. We are not talking about the South China Sea; 
we are----
    Mr. Bridenstine. No, we are because the South----
    Dr. Holdren. --talking about climate change.
    Mr. Bridenstine. --China Sea is their next move and they 
are doing it for energy purposes. And guess what? They didn't 
consult the Philippines, they didn't consult Vietnam, they 
didn't consult Malaysia or Indonesia, they didn't consult 
Taiwan. They just went ahead and said we now control the South 
China Sea. Now was that in the plan?
    Dr. Holdren. I am not defending what China has done in the 
South China Sea.
    Mr. Bridenstine. Well, let me ask you----
    Dr. Holdren. What I am saying is China finds it----
    Mr. Bridenstine. --I am going to ask you a very important 
question----
    Dr. Holdren. --in its own interest----
    Mr. Bridenstine. Does China----
    Dr. Holdren. --to reduce greenhouse gas emissions----
    Mr. Bridenstine. Does China do what is in our interest or 
do they do what is in their interest? Because what we have seen 
is they do what is in their interest and encourage us to do 
what is against our own interest. Do you agree with that?
    Dr. Holdren. No, I do not. In the case of climate change it 
is in both our countries' interest to reduce both of our 
greenhouse gas----
    Mr. Bridenstine. Then why are they continuing to----
    Dr. Holdren. --and that is why we are cooperating----
    Mr. Bridenstine. --increase their emissions?
    Dr. Holdren. --in that domain.
    Mr. Bridenstine. You recognize that they are continuing to 
increase their emissions, and the more we reduce ours, we 
hinder our economy while their economy is growing more rapidly, 
is that correct?
    Dr. Holdren. They are continuing to increase their 
emissions but at a declining rates, and they are aiming to peak 
and then decline at--currently, we expect that China will be 
announcing an intention to peak by 2030 and we----
    Mr. Bridenstine. Well, I am glad they are going to----
    Dr. Holdren. --hope----
    Mr. Bridenstine. --peak in 2030.
    Dr. Holdren. And we hope that they will move that forward 
as the technological capabilities to do it become available.
    Mr. Bridenstine. I have got 30 seconds left. The Mayor of 
Tulsa was here today, Dewey Bartlett. He is a good friend of 
mine. He would like me to ask you guys if you are aware that 50 
percent of the total electricity output for Oklahoma comes from 
coal. Are either of you aware of that, 57 percent of our 
electricity output comes from coal in the State of Oklahoma?
    Ms. McCabe. There are a number of states where a 
significant portion comes from coal and we expect that to 
continue.
    Mr. Bridenstine. In Oklahoma we have a 20 percent lower 
cost of electricity than the national average. Are you aware of 
that?
    Ms. McCabe. Not specifically but I--it doesn't surprise me.
    Mr. Bridenstine. So when these rules go into effect, do you 
know what happens? Manufacturing jobs that have a high cost of 
energy, manufacturing jobs leave Oklahoma. And guess what? It 
is a lot more difficult to attract jobs to Oklahoma. Are you 
guys aware of that? So even though you suggest that this may 
grow the economy, right now, that is not how it is working in 
my State of Oklahoma.
    I am out of time but this is something you need to think 
about. Thank you so much.
    Mr. Rohrabacher. Thank you.
    Mr. Posey from Florida.
    Mr. Posey. Thank you very much, Mr. Chairman.
    Thank you, Dr. Holdren and Ms. McCabe for coming here 
today. I know sometimes it is really not fun here and I hope it 
is not intended as a bunch of grouches. I mean I hope everybody 
is really trying to find common denominators and trying to make 
common sense meets science and get a good handle on this and I 
think that if there is enough debate, someday it will probably 
level out and most people will share the same opinion, but 
there is just a lot of digging to get there.
    And, for the hundredth time, I believe in climate change, 
never said I didn't believe in climate change. Some people have 
claimed that I said I did--I never--I defy anybody to say I 
don't believe in climate change. I think the last time Dr. 
Holdren was here we discussed climate change. I talked about 
the temperature of the Earth 65 million years ago being 
significantly hotter than it is now and some lame-brained 
blogger willfully and wantonly distorted the fact to say I said 
it didn't bother the dinosaurs, why should it bother us? So 
there is a lot of venom flowing on both sides of this issue, 
which I am afraid hinders more direct discussion of the fact, 
and that is real unfortunate.
    You know, I think from my perspective the overarching 
interest in the issue and the common ground that I think 
everybody has is it is important that we have clean air and 
clean water for everybody. I mean every generation--everybody 
is healthier if we have clean air and clean water, and I think 
that is kind of where you are trying to go and I think that is 
where the so-called other side is trying to go, too, but there 
are just some things they want to quantify. And, you know, 
science should be questioned. Everybody's opinions should be 
questioned. Mine should be questioned, yours should be--
everybody's should be--and that is what we do here.
    Sadly, like I say, sometimes it gets a little more 
acrimonious than it needs to be. Sometimes the people that come 
in here and say politics shouldn't be involved in this are the 
most political people and politicize it the most, but that is 
unfortunate.
    But my interests, getting to the crux of it, is still 
trying to have some kind of quantification rather than just 
platitudes. They say, well, we do a bunch of little things and 
add up to a big thing. You know, I understand that and I think 
everybody understands how that might work, but it is still just 
trying to quantify it. And somebody talks about a dime-thin 
worth of coastal rise but what I am still kind of searching for 
is to quantify what man's contribution in the United States of 
America is to climate change. I mean I know we are having it, 
you know, and everybody knows. I mean you learned as a young 
child the longer you stand in front of the fireplace, the 
warmer you get generally speaking unless there is extenuating 
circumstances.
    But I just--and you don't want--you don't have to do it 
now. I am not trying to do a gotcha, but that is really what I 
am looking for, and if you can drop me a note on that, that is 
okay. I mean, you know, it doesn't have to be a big arena 
question, just trying to quantify if we go--if we take these 
steps at the end of the day, you know, what really difference 
is it going to make? And I am not saying it is worth it or 
shouldn't be worth it or whatever we do for clean air and clean 
water isn't important. I think everything that we do is. But 
just to kind of start working on the equation, it would be good 
to know what we attribute to the natural heating of our planet 
and do we expect that to continually increase, and then to what 
extent mankind directly affects it, and then more particularly 
to what extent the United States of America directly affects 
it. And I think that will put a lot of questions of a lot of 
other people in perspective, too, if we ever reach that--if we 
ever get that point. And either one of you can respond. You 
know, I am not trying to be argumentative but----
    Dr. Holdren. Well, Congressman Posey, first of all, I 
appreciate your opening comment about the need for continuing 
discussion and the hope for ultimate convergence. That is an 
appropriate sentiment.
    I would note, first of all, that in my long statement there 
is a lot of quantitative information and there is reference to 
much more, and the facts as we understand them are that natural 
climate change, if it was the only thing that was happening, 
the world would be in a long-term cooling trend. So the fact 
that is embraced by the vast majority of the scientific 
community who study these matters is that virtually all of the 
warming trend we have seen in the last several decades has been 
caused by human activities and most specifically by emissions 
from fossil fuel combustion, secondarily from deforestation and 
land-use change.
    The second point I would make is although you are 
absolutely right that climate has been changing for the whole 
history of the Earth for a whole variety of reasons, it is 
changing many times faster now than it changed before. And the 
problem that poses is that the ability of society to adapt and 
ecosystems to adapt is stressed and potentially ultimately 
swamped.
    Sixty-five million years ago when it was 13 or 14 degrees 
centigrade above the current temperature, the sea level was 
probably about 70 meters above the current sea level. We 
believe that the polar caps were free of ice at that time. All 
that ice was in the ocean and that makes sea level 70 meters 
higher. Also, 65 million years ago we didn't have 7 plus 
billion people to feed, house, and try to make prosperous.
    So while you are absolutely right the temperature has 
varied enormously over the millions of years, that should be no 
consolation in the current situation where we are driving the 
temperature up at an unprecedented pace.
    Mr. Rohrabacher. Your time is up and the Chair will now be 
switching to Mr. Schweikert from Arizona.
    Let me just add as I leave for my next assignment that I 
personally thank the witnesses and where we have some 
fundamental differences or disagreements, we certainly should 
keep our minds open and try to be--try to get to what really is 
the science. And let me say in other areas we agree.
    And, Mr. Holdren, I want to congratulate the White House on 
your recent decision to assign commercial contracts for space 
transportation and resupply of the space station, Debian, and 
Space Acts.
    Dr. Holdren. Let me just say that was NASA's decision, but 
thank you for your approval.
    Mr. Rohrabacher. You might have had something to do with 
it. If you did, thanks.
    Dr. Holdren. Okay.
    Mr. Rohrabacher. And with that, Mr. Schweikert.
    And Mr. Stockman will be taking Mr. Schweikert's position 
in line. Thank you.
    Mr. Stockman. Thank you. I have some of the statements that 
were passed around today was the investments in Europe and--in 
climate change, and I think what was left out of the record was 
that Spain sold climate change bonds to its populace and 
guaranteed by the government and the government now has 
rescinded that guarantee and they lost a tremendous amount of 
money.
    And so for the argument only point to Germany without 
pointing to Spain's failure, we would be remiss in the record 
to leave that out. Many Spaniards lost their entire savings 
investing in climate change technology.
    Also, too, I hear repeatedly, you know, well, Obama is not 
going to close plants. I don't think anybody suggested that 
Obama is going to close plants. I think what we are suggesting 
is the policies will close plants, and that seems to bear out 
with the predictions are coming true across the country and 
what plants have to be closed.
    In reference to China, I was just there. The embassy said 
that their level of measuring of pollution was so high that 
their equipment could not measure it and there is now a key 
factor in moving to Beijing that you are given compensation 
because you can't even breathe the air there, and many people 
working there, including some of the embassy staff, are not 
willing to work in Beijing it is so bad. And I actually asked 
some of the Chinese officials if they thought they could meet 
their climate projections and they laughed. They don't believe 
it and I don't think we should either.
    And my colleague over here who said we are in a do-nothing 
caucus, may I remind the colleague by his own testimony that 
the EPA was created by a Republican and he, by his own 
admission, says that the pollution has gotten 70 percent 
better. So I would argue that that is not do-nothing; that is 
actually has done something.
    And I went to Maryland and asked repeatedly two things 
which I have never been able to get answers on. One was I said 
what ended the Ice Age? And the lead scientist at NASA said 
this: He said that what ended the Ice Age was global wobbling. 
That is what I was told. This is a lead scientist down in 
Maryland. You are welcome to go down there and ask him the same 
thing.
    So on my second question, which I thought was an intuitive 
question that should be followed up, is the wobbling of the 
Earth included in any of your modeling? And the answer was no. 
So how can you have wobbling of the Earth cooling the Earth and 
not be included in any projections? That is one for the books 
that I am a little bit confused about. How can you take an 
element which you give to the credit for the collapse of global 
freezing and then to global warming but leave it out of your 
models? I am a little bit puzzled because we still don't have 
any metrics I understand of how to determine global wobbling, 
which I didn't know was part of the reason for the end of the 
Ice Age.
    The last thing I asked him which I can't get answers to how 
long will it take for the sea level to rise 2 feet? I mean 
think about it, if your ice cube melts in your glass, it 
doesn't overflow. It is displacement. I mean this is the thing, 
some of the things that they are talking about that 
mathematically and scientifically don't make sense.
    But I just--I am wondering overall when you have a model 
and you say we are going to leave out the most important impact 
of that model out of our theory and not talk about global 
wobbling, how can you make projections?
    So I am concerned that while again you are saying Obama is 
not closing plants, you are correct on that note, which we here 
in Congress and other places take these words very seriously, 
but the policies will do exactly that. It will close plants and 
it has in Texas and it will around the country. And 
unfortunately, China I know firsthand is laughing at their own 
predictions. And with that, I will let you respond, but if you 
have a model with global wobbling, please let me know and let 
me know how long it takes the seas to rise 2 feet.
    Dr. Holdren. Congressman Stockman, I am not going to talk 
about the economy of Spain; that is not my expertise, but I am 
going to talk about the science and help you a little bit with 
global wobbling to start with. Global wobbling, which refers to 
changes in the Earth's tilt and orbit, takes place on 
characteristic timescales of 22,000 years, 44,000 years, and 
100,000 years. It is very slow. It brought us into ice ages; it 
brought us out of ice ages. When you take global wobbling into 
account, as I have already suggested, we would be in a cooling 
period now, but the warming inflicted by human activities has 
overwhelmed the effect of global wobbling.
    Mr. Stockman. But I was told----
    Dr. Holdren. You don't have----
    Mr. Stockman. Wait a minute. None of the models have global 
wobbling in them. Is that true?
    Dr. Holdren. And I am about to explain why. The reason why 
is that global wobbling is a tiny effect on the timescale of 
100 years in which we try to run these models to understand 
what is going on now and going on soon. It is so small----
    Mr. Stockman. No, with all due respect----
    Dr. Holdren. --and it is so small that you don't----
    Mr. Stockman. No.
    Dr. Holdren. --need to put it in.
    Mr. Stockman. No, you can't say it had a global impact and 
then is small both. Those are the kind of statements----
    Dr. Holdren. It had a global impact over periods of tens of 
thousands and hundreds of thousands----
    Mr. Stockman. So you are saying the Ice Age----
    Dr. Holdren. --of years. We are talking about decades----
    Mr. Stockman. --took hundreds of thousands of years to end?
    Dr. Holdren. Ice ages----
    Mr. Stockman. How long did the Ice Age take to end?
    Dr. Holdren. Ice ages went on for hundreds of thousands of 
years----
    Mr. Stockman. That is not what I am asking you----
    Dr. Holdren. --in some cases for millions----
    Mr. Schweikert. [Presiding] Mr. Stockman----
    Dr. Holdren. --and they ended over long periods of time as 
well as a general matter.
    Mr. Stockman. Doctor, I would just ask you if you could 
give me your model----
    Mr. Schweikert. And sorry, I don't mean to step on anyone. 
It is just as the chaos of today, everyone is going to be 
running on to other hearings.
    Mr. Weber.
    Mr. Weber. Thank you. Appreciate you all being here. Mr. 
Holdren, you just, in your exchange with Congressman Stockman, 
said that the economy of Spain is not your expertise, and I 
would probably venture to add that the economy of the United 
States is probably not your expertise either. Is that fair to 
say?
    Dr. Holdren. That is correct. In respect to the economy of 
the United States, I rely on folks like the Council of Economic 
Advisors and the National Economic Council----
    Mr. Weber. The reason I bring that up is because the last 
thing we want is an unintended consequence, which Congress 
seems to be good at I might add, whereby the policies coming 
out of the Administration, the EPA, or any of the other 
agencies have that unintended consequence of actually harming 
our economy. And so I try to be keenly in tune with that. I 
just want to make that point.
    Very quickly, in January of this year, a very cold January 
I might add, you filmed a short video for the White House 
website entitled ``The Polar Vortex.'' In that video you said, 
``a growing body of evidence suggests that the kind of extreme 
cold being experienced by much of the United States as we speak 
is a pattern that we can expect to see with increasing 
frequency as global warming continues.'' And scientists on both 
sides of that issue quickly took issue with that. A complaint 
was filed with the agency seeking to correct it under the 
Federal Information Quality Act, yet your office claimed this 
was an expression of your personal opinion. Is that accurate?
    Dr. Holdren. It is accurate, and as the President's Science 
Advisor, I express my personal opinion on the balance of 
science all the time.
    Mr. Weber. Okay. And if that was nothing more than a 
personal opinion, were White House resources spent on producing 
that video?
    Dr. Holdren. I stated in the video that it was my judgment 
that we would see more of this. I believe that to be true.
    Mr. Weber. But my question was about the money. Who paid 
for the video?
    Dr. Holdren. I assume that the----
    Mr. Weber. Okay.
    Dr. Holdren. --White House Digital Services paid for the 
video.
    Mr. Weber. You are contributing to the economy then, so 
maybe the economy is part of your forte because some production 
company made out on that deal.
    Let me go to the regulation that you are proposing here and 
let me--I want to jump over the ozone rule for just a minute 
and the EPA has a track record. I am from Texas. Texas has 
about 1,200 people a day moving there. We have dropped our 
carbon emission four percent in the last almost ten years while 
we have gained 4 million people to a population of 25 million, 
so that is a pretty hefty sum, a little over 20 percent I guess 
or about--not quite 1/5.
    So the ozone proposal that you all put forward would cost 
$90 billion, with a B, lowering the ozone standard, and yet 
earlier you said to Jim Bridenstine that the assessment was 
irrelevant that he was trying to make the connection on. So if 
$90 billion annually it is going to cost to business, are you 
still prepared to say here today that won't cost any more for 
electricity, that the cost of energy that is going to go up 
because of these kind of regulations really--I realize we are 
not economy experts here, but do you really sit there and think 
that industry pays $90 billion a year or more to effect just 
that one ozone rule and nothing is going to go up?
    Ms. McCabe. Well, Congressman, if your question is about 
the Clean Power Plan, the economic analysis does show that 
electricity bills will go down in 2030 because of the effects 
of energy efficiency.
    Mr. Weber. Well, listen, I applaud you for believing that. 
I have got some oceanfront property in Oklahoma I would like to 
sell, too, so I just--I can't buy that. I mean I do--I own a 
business so I know how the economy works.
    Let me go to carbon for just a second. Texas, as I said, 
has done a great job, people moving there every day by the 
thousands, 1,200 a day. And your carbon rule that you are 
proposing, with Texas cleaning up its air--and I will--and I 
believe that the EPA will admit that most of the ozone 
emissions, all right, noxious gas emissions, from non-
stationary point sources, i.e., vehicles. Is that true?
    Ms. McCabe. Point sources is a term that refers to 
stationary sources----
    Mr. Weber. Got that.
    Ms. McCabe. --the emissions that contribute to ozone----
    Mr. Weber. They are coming--let me just short-circuit you. 
They are coming from cars.
    Ms. McCabe. No--not--no, not predominately. Cars----
    Mr. Weber. Non-stationary point sources, how would you 
describe that?
    Ms. McCabe. Cars make up about 1/3 of the emissions--
    Mr. Weber. Okay.
    Ms. McCabe. --and utilities, power plants, make up another 
1/3.
    Mr. Weber. Those plants seem to be pretty stationary to me 
but that is just me thinking.
    Ms. McCabe. Right, but they are a significant----
    Mr. Weber. The----
    Ms. McCabe. --contributor to pollution----
    Mr. Weber. I am almost out of time. The point is that Texas 
has been really increasing their--I want clean air and clean 
water for my kids and grandkids and for me and for you. Texas 
has been improving their air and water quality without the 
EPA's oversight. We have got states that are doing a good job, 
and unfortunately, the rules that the EPA is proposing are 
going to put a lot of the country in non-attainment on ozone, 
going to cost a lot of jobs, so even though we are not economy 
experts, before we have that unintended consequence, we are 
going to have to really think long and hard about the data and 
the scientists--the science used behind this.
    And I am way out of time. I apologize but I just want to 
make that point.
    Mr. Chairman, I yield back.
    Mr. Schweikert. Sorry about that. We were working on some 
of our calendar.
    Mr. Bucshon--or, excuse me, Mr. Cramer.
    Mr. Cramer. Thank you, Mr. Chairman.
    Thank you, Ms. McCabe and Dr. Holdren, for being here. Good 
to see both of you again.
    I am a little conflicted because I want to focus on the one 
hand on the reliability issues that Mr. Johnson brought up 
earlier but I think I am going to start with the flexibility 
issues because both the Agency and the Administration--you are 
quite adamant about the flexibility that the rule provides 
states, and I am wondering how much flexibility was considered 
for states with regard to the rate of emissions themselves? I 
mean did states have much flexibility in determining the 
emission rates?
    Ms. McCabe. Well, under the Clean Air Act, it is EPA's 
responsibility to determine the level of reductions to be 
achieved or the ultimate performance level, but then equally 
under the Clean Air Act the states have a responsibility but 
the opportunity to design a plan that achieves those goals 
using the best system that makes sense for them.
    Mr. Cramer. Okay. So going to another area of flexibility, 
and this was a question that was raised by a constituent of 
mine who is in the room, Perry Schafer, who has a small 
business--a couple of small businesses in North Dakota called 
Environmental Services. He provides service and sells products 
to power plants largely. And how much analysis under the 
Regulatory Flexibility Act was put into this rule? First of 
all, I guess are you familiar with the Regulatory Flexibility 
Act and what it does?
    Ms. McCabe. I am.
    Mr. Cramer. Okay. So how much--well, how much analysis was 
put in to consideration of that act and can you perhaps 
elaborate a bit on what the findings were and how it is applied 
in the proposed rule?
    Ms. McCabe. So the industrial sector that is addressed by 
the rule is the power plant sector and those are primarily 
large businesses. And so the economic analysis that we do look 
at the impact that we expect from the types of choices that 
people will be making in order to comply with the rule given 
what we see happening in the economy right now.
    Mr. Cramer. So when you are applying the analysis for the 
Regulatory Flexibility Act, you are considering the flexibility 
of the power plant but not all these small businesses that are 
affected by the rule as they impact the power plant. Is that 
what I just heard you say?
    Ms. McCabe. Well, we look at the approaches that we see 
being used by states and companies around the country and the 
types of things that they are doing and look at the expected 
impacts of those on costs and--on the economy.
    Mr. Cramer. So besides the precedent-setting piece of this, 
which we haven't even begun to address what the impact will be 
if this rule goes forward, if it is accepted and becomes the 
tradition and culture of the land, what impact it is going to 
have on manufacturing and the rest of the industrial sector, is 
it not true that the industrial sector depends tremendously on 
electricity and that it fact whether small business, medium-
sized business, or large business, there is a very direct--not 
just an indirect--but a very direct economic impact and did 
the--is the flexibility there to address small business?
    Ms. McCabe. Well, the analysis that we have done shows that 
the effect actually will be positive by reducing electric bills 
in 2030 as a result of the energy efficiency, and the rule will 
lead to significant investment in the kinds of activities that 
support small businesses across our community and energy 
efficiency and renewable energy and other technologies.
    Mr. Cramer. Since you brought up this lowering of rates or 
the lowering of the bills in 2030 due to efficiency, being a 
former regulator--economic regulator, utility regulator, I know 
full well that efficiency is not free. It is not even cheap. It 
may not even be the cheapest alternative, although I know that 
is commonly thought. But in a state where our retail rates 
today average about between eight and nine cents a kilowatt 
hour, the cost of compliance with efficiency standards is 
oftentimes greater than the cost of the electricity itself.
    And the other thing I would raise is the plants have to be 
paid for and they have to be paid for over the lifespan of the 
plant, and if you impose efficiency which costs people--and 
frankly I think is a greater burden on the poor than it is on 
the people that can afford the efficiency methods, doesn't the 
cost of that plant--the stranded cost still have to be covered 
one way or another, and whether it is at 8 cents or 9 cents or 
10 cents or 30 cents a kilowatt hour, I mean is that all 
factored in or is this a very static analysis, which I am 
afraid it is?
    Ms. McCabe. Well, there is a lot in your question, 
Congressman.
    Mr. Cramer. Yes.
    Ms. McCabe. But on the question of stranded assets, one of 
the advantages to the long trajectory that the proposal has in 
it, which is compliance by 2030----
    Mr. Cramer. Um-hum.
    Ms. McCabe. --was exactly to address those sorts of issues. 
We recognize that that is a reality and we wanted have a plan 
that would allow states to make choices that would avoid 
stranded assets.
    Mr. Cramer. And I think the other advantage is that when 
you go that far out, nobody is going to remember that we have 
promised that rates were going to come down in 2030.
    My time is expired.
    Mr. Schweikert. Thank you.
    Mr. Cramer. Thank you for your testimony.
    Mr. Schweikert. Thank you, Mr. Cramer.
    Mr. Neugebauer.
    Mr. Neugebauer. Thank you, Mr. Chairman. Thank you for 
holding this hearing.
    This is a question to both of you. The EPA I think 
calculates that this rule will cost between $7.3 and $8.8 
billion, but the U.S. Chamber of Commerce recently published a 
study that said they think it will cost the economy $50 billion 
per year through 2030. The question we have heard a lot about 
how high energy costs can impact businesses and that causes 
unemployment, but the thing that I think sometimes goes unsaid 
is what does it do to American families? So does the 
Administration acknowledge that if, for example, you increase 
the cost to a family for energy of $500 a year, that what that 
does to low-income and senior citizens and how they are going 
to be able to cope with that?
    Ms. McCabe. We recognize these are real impacts. That is 
why the rulemaking process requires the agencies to put forward 
an economic analysis so everybody can take a look at those 
things. I will note that we need to be careful when we compare 
different studies to make sure that people are looking at the 
same thing, and so the analysis that we have in our--that is in 
our proposed rule now is out for public comment and people can 
give us their views on what the EPA is actually proposing as 
opposed to perhaps other ideas that people might have.
    Mr. Neugebauer. But you are making some assumptions here 
and you have a study, they have a study, there are a lot of 
numbers out there. Some of those numbers that I hear are even 
bigger numbers than that. But the real issue is is you say by 
2030 that this will be cost neutral because of energy 
efficiency. Well, number one, we don't know whether that 
efficiency will occur, but in the meantime, that senior citizen 
or that low-income family is going to be paying more for their 
utilities.
    Ms. McCabe. If I may, Congressman, then I will defer to 
you--yes, certainly. One of the things that we did in 
developing this proposal was to look at the programs that are 
already out there and many states are very far along with very 
good and aggressive energy efficiency programs in which they 
are finding that it is good for their local economies. 
Utilities and utility regulatory systems are very aware of the 
impacts on low-income ratepayers and there are lots of programs 
that make sure that those impacts are mitigated or adjusted so 
that the benefits can be achieved without opposing those sorts 
of costs on people.
    In this rule, which puts states in the driver's seat for 
deciding how they are going to implement these plans, allows 
them all the flexibility to make sure that they are making 
those kinds of sensible decisions that are sensitive to the 
needs of their citizens.
    Dr. Holdren. I would like to just add two very quick 
points. First of all, the Chamber of Commerce study was of what 
they thought the EPA plan was going to be. It was developed 
before the EPA plan came out and the EPA came out with a 
different plan than the Chamber of Commerce analyzed, so no 
wonder the numbers are different.
    Secondly, the biggest factor in reducing coal use for 
electricity generation in this country has been the expansion 
of natural gas, and the reason that has happened, although 
natural gas does bring a greenhouse gas benefit, the reason it 
happened is that natural gas has been cheaper, not more 
expensive than coal.
    Mr. Neugebauer. Yeah. Well, again, I am not sure exactly 
what the Chamber's study would be adjusted based on the new 
rule, but what I have--know that we have had a number of 
witnesses, and sit where you are, and nobody has said that they 
think that this rule will make the cost of electricity go down. 
I mean we--and it is not just one or two people; we have had a 
number of people. And so I think the question that I have is 
that you have basically created a tax and this tax is going to 
be--you know, for upper income people this may not be an issue 
but it is going to cost jobs. But more importantly, you know, 
it is going to put a real strain on our families.
    Speaking of jobs, what--how many--if you did an analysis 
and you talked about putting this rule into effect, how many 
jobs do you think would be decreased by the fact that you would 
put this in place? Or do you think it is going to increase jobs 
or decrease jobs? What is your study?
    Ms. McCabe. Yeah, all of that is laid out in our Regulatory 
Impact Analysis and looks at the impacts in various parts of 
the economy on job increases and decreases. And our information 
shows that there will be increases in some areas and decreases 
in other areas. There are already those sorts of shifts going 
on in the energy sector, and so our analysis reflects that. So 
I would commend folks to take a look at that and give us their 
thoughts on how we have looked at those numbers.
    Mr. Neugebauer. What was the net?
    Ms. McCabe. If you give me a minute, I will find that for 
you, Congressman.
    Mr. Schweikert. Ms. McCabe, can I beg of you to look that 
up----
    Ms. McCabe. We can get it----
    Mr. Schweikert. --when it comes up, we will----
    Ms. McCabe. We will get it back to you.
    Mr. Schweikert. All right.
    Ms. McCabe. We can get it back to you.
    Mr. Schweikert. Thank you, Mr. Neugebauer.
    Mr. Broun.
    Mr. Broun. Thank you, Mr. Chairman.
    President Obama, in a nationally televised address, said 
his energy policies would ``necessarily skyrocket the cost of 
energy.'' And I think your proposed rule--and he is utilizing 
the EPA to do that. And I just want to make a public comment. I 
think this is blatantly unfair to poor people and senior 
citizens on limited income. That is what you guys at the OSTP 
in the EPA have been doing is driving up the cost of energy and 
it is absolutely unfair to poor people and to senior citizens 
on limited income, as well as the middle class. Only the rich 
people can afford to pay for the energy that you all's rules 
that you have already put in place and that you are proposing 
will go forward.
    But why does the proposed rule that will penalize states 
whose utilities have decided to invest in new nuclear 
generation by factoring those facilities into the state 
targets? Shouldn't those utilities that made the decision to 
invest in non-emitting baseload generation get full credit for 
their investments? Administrator?
    Ms. McCabe. Yes. So this is an issue that we are getting a 
lot of input on and a lot of good discussion, and as you 
acknowledge, there are states and utilities that have been more 
forward-looking in the types of investments that they have made 
and we believe that the rule actually recognizes those advances 
and----
    Mr. Broun. Well, I don't think so and the states should get 
full credit for those and the utilities that are doing so.
    Also, can you discuss the treatment of the Nation's nuclear 
energy fleet? In your analysis you simply assume that states 
can keep on the nuclear power generation that they now have. 
How might the expected accelerated retirement of nuclear plants 
affect the cost of the rule?
    Ms. McCabe. Yeah, we recognize that states' choices about 
nuclear energy are important considerations for them. The rule 
itself focuses on the fossil generating fleet. That is our 
obligation under the Clean Air Act. We--in--we built into the 
rule some elements that we hope will provide some incentive to 
keep clean nuclear generation in operation, to help the states 
with their carbon intensity, and we will--we have been talking 
with states with significant nuclear resources to make sure 
that we fully understand what they see as the possible 
implications.
    Mr. Broun. Well, Georgia is trying to put in the first two 
nuclear power plants that have been authorized in several 
decades----
    Ms. McCabe. Right.
    Mr. Broun. --and it has run into problem after problem, 
Georgia Power Company has and Southern Company has because of 
this Administration particularly. We need to make nuclear power 
easier to put in place. We need to have some policy to--NRC as 
well as EPA and other entities that affect these, to make it so 
that utilities can put in power plants and not so expensive 
because that is going to make electricity much cheaper and it 
is non-emitting.
    Dr. Holdren, emails have emerged in the Richard Windsor 
lawsuit where former EPA Administrator Lisa Jackson violated 
the law by using false email identity that also revealed that 
you used a private email account for work-related emails, all 
this while you were at the White House. According to records 
from that lawsuit, you were sending such work-related emails to 
your duties at the White House even after you sent a memo 
admonishing other OSTP employees to stop using private email 
account. And in fact you even pledged that you were going to 
cut ties with previous groups and you used private emails, I 
understand, with the Woods Hole Oceanographic Institute in 
spite of your pledge and against the law. Have you decided to 
heed your own advice and stop using your private email account 
when you are clearly discussing your work-related duties of the 
White House?
    Dr. Holdren. I am not sure what that has to do with the 
topic of this hearing but I will answer. The----
    Mr. Broun. You were here before me and last time I saw you 
we were in the office talking about another issue and hopefully 
we can settle that in the future.
    Dr. Holdren. So----
    Mr. Broun. But----
    Dr. Holdren. --the answer is I copied----
    Mr. Broun. --I think it is very important----
    Dr. Holdren. --as the regulations require in the White 
House, I copied all work-related emails that originated on my 
home computer to the White House so that there would be a 
record so there would be no violation of the Federal Records 
Act. The reason I did some of those emails initially at home 
was that I didn't have the technological capability to get at 
my White House computer from home. We now have that capability 
and I am no longer using my home computer when I am not at the 
White House. But then I complied----
    Mr. Broun. So you utilized----
    Dr. Holdren. I complied with regulations by copying those 
emails to my White House computer so that there would be no 
violation of the Federal Records Act.
    Mr. Broun. And so all of your private emails were put into 
public records so that the----
    Dr. Holdren. As far as I know, all those related to work--
--
    Mr. Broun. --Federal Records Act and Freedom of Information 
Act, there is no violation?
    Dr. Holdren. As far as I know, there is no violation. As 
far as I know, I succeeded in my intention to copy all of my 
work-related emails to the White House computer.
    Mr. Broun. Well, I certainly hope so. Lisa Jackson broke 
the law----
    Mr. Schweikert. Okay.
    Mr. Broun. --and I think that you are doing the same thing 
when you do that.
    Mr. Schweikert. Thank you, Mr. Broun.
    Mr. Broun. My time is expired. Thank you, Mr. Chairman.
    Mr. Schweikert. Mr. Hultgren.
    Mr. Hultgren. Thank you both for being here. We as 
policymakers certainly need to know how science is being used 
by the Administration to justify new rules. Too many of my 
constituents are just struggling to keep the lights on, just as 
we were struggling earlier in this hearing, on home or work, so 
they really do need to know the effects the rules will actually 
have. To many of my constituents, many of this Administration's 
new regulations seem to benefit lawyers in Washington, D.C., 
more than the environment back in McHenry County, Illinois.
    Administrator McCabe, we have had former Administration 
witnesses testify to EPA's interagency collaboration as being 
merely a box-checking exercise rather than a true 
collaboration. This echoed back to your response to me in a 
previous hearing where you would not say that EPA actually 
utilized DOE's Technology Readiness Assessment for the 
technologies you needed to justify your own rules.
    This seems to be an ongoing problem throughout your agency 
and with environmental regulations in general, so I want to ask 
a more specific question about how EPA plans to react during 
the potential grid reliability emergencies that I am afraid 
these rules might bring about. It is my understanding that 
there have been two instances where plants were shut down due 
to EPA regulations but DOE required them under Section 202(c) 
of the Federal Power Act to resume operations in order to avoid 
a reliability emergency. If these plants did not resume 
operation, they would face unlimited liability from lawsuits 
under the Clean Air Act. One of the plants did resume operation 
and was slapped with National Ambient Air Quality Standard 
violation. The other was forced to settle significant lawsuits 
out of court.
    This should be a yes or a no. If you are receiving two 
conflicting orders from a regulatory agency, is it proper use 
of regulatory authority to just make a citizen choose which 
fines they pay and which mandates they ignore? This certainly 
seems to be a case where the EPA rules say that the lights 
being off is a greater benefit to society than people working. 
When or could the Administration's new plan be used in this 
way?
    Ms. McCabe. EPA works closely with DOE and with FERC and we 
have been for a number of years to make sure that we are 
keeping on top of any potential reliability issues. The--our 
system of laws in this country has provisions for emergency 
situations that, as you note, have been activated not very 
often, and so we work within those system of laws.
    There are a number of things about the Clean Power Plan 
that we think will make those sorts of situations very unlikely 
to happen. One of them, for example, is the fact that the 
compliance period, the averaging times for utilities under 
these rules are lengthy, and so they are--they will accommodate 
emergency situations of short duration because they will be 
able to average their operations over a long period of----
    Mr. Hultgren. But the point of my question was, you know, 
really of forcing citizens and private entities to choose 
between which fines they will pay, which mandates they ignore. 
Again, I feel like this is an unfair situation to put them in.
    Let me address a second question to both of you. Factoring 
out supposedly co-benefits from other emissions, how do carbon 
reductions equate to reductions in heart attacks and asthma?
    Dr. Holdren. That all has to do with the effects of climate 
change itself as carbon dioxide does not cause asthma by 
itself; it does not cause heart attacks. If, however, you 
change the climate so that there are more extreme instances of 
heat stress, you contribute to heart attacks. If you change the 
climate in a manner that increases pollens or increases 
conventional air pollutants of a number of kinds, then you 
affect asthma.
    Mr. Hultgren. Administrator McCabe, is EPA considering any 
additional requirements for reductions in ozone?
    Ms. McCabe. They are--we have a process underway now as the 
Clean Air Act requires----
    Mr. Hultgren. So yes?
    Ms. McCabe. --to review the 2008 ozone standard.
    Mr. Hultgren. And what is that lowering amount that is 
being considered?
    Ms. McCabe. EPA has not proposed a rule yet. We will 
propose one later this year. There has been a science inquiry 
going on for the last couple of years, as is required by the 
Clean Air Act.
    Mr. Hultgren. Was it an agency decision to create new rules 
or was this a result of a lawsuit?
    Ms. McCabe. We are required under the Clean Air Act to 
review the National ambient air quality standards on a regular 
basis, every 5 years.
    Mr. Hultgren. Do you believe the EPA should have their 
hands tied on this if they know a rule cannot be complied with?
    Ms. McCabe. There is a premise of that sentence that I 
don't agree with. The EPA, ever since the beginning of the 
Clean Air Act, has successfully promulgated health standards 
for air quality that have led to tremendous improvements in 
public health across the country.
    Mr. Hultgren. My time is expired. I yield back the balance 
of my time.
    Mr. Schweikert. Thank you, Mr. Hultgren.
    Mr. Hultgren. Thank you.
    Mr. Schweikert. Mr. Kennedy.
    Mr. Kennedy. Thank you, Chairman.
    To Ms. McCabe--thank you both, first of all. It is great to 
see you again. Thank you both for coming to testify today. 
Thank you for your service to your country.
    Ms. McCabe, at a hearing on the Clean Power Plan back in 
July, Dr. Cash, who is the Commissioner of Massachusetts 
Department of Environmental Protection, highlighted the 
successes of RGGI, the Regional Greenhouse Gas Initiative in 
New England. For example, he indicated that through RGGI, the 
participating states have been able to reduce carbon emissions 
by 40 percent while simultaneously expanding the regional 
economy by seven percent. It is my understanding that EPA 
recognizes the effectiveness of the state partnerships like 
RGGI and has explicitly drafted a proposed rule to allow 
partnerships like these to continue. I was hoping, Ms. McCabe, 
that you might be able to discuss some of the advantages of 
using a regional approach like this to reduce carbon emissions 
and its impact on innovation.
    Ms. McCabe. Yeah, that is a very, very good question, and 
Dr. Cash is very eloquent on the benefits of the program to 
Massachusetts. I have had that conversation with him.
    There are a number of benefits and I will just emphasize 
that in our proposal we are agnostic about whether states might 
want to join with other states but there are definitely are 
some advantages. One advantage is that, as you make the pool of 
participants larger, you increase the opportunities and that 
will generally lead to more opportunity for more cost-effective 
reductions; the bigger the pool, the more opportunity. So that 
is one.
    There are advantages that some states may perceive because 
of the way the energy production system works. That is some 
companies operate--many companies operate in more than one 
state and so it can reduce complexity for there to be a 
regional plan that states can work within, and so that is 
another definite benefit.
    It can simplify--the RGGI system has some very 
straightforward compliance mechanisms in place that simplify 
the operation of the program, and again, that brings cost down, 
brings more certainty to the process.
    Mr. Kennedy. Great, thank you. And now a question for you 
both, and, Dr. Holdren, maybe you can start. It has often been 
said or at least reported in the press--some aspects of the 
press that the Administration is waging a ``war on coal.'' 
However, I think it is important to note that thus far the 
Administration has invested about $6 billion in support of 
developing carbon capture and other technologies to try to make 
coal more efficient and to reduce its environmental impacts. I 
believe in December of last year DOE issued a solicitation 
making up to $1 billion in loan guarantees available to fossil 
fuel projects.
    Dr. Holdren, I was wondering if you could just respond to 
the assertion about war on coal and discuss some of the 
Administration's efforts?
    Dr. Holdren. Thank you, Congressman Kennedy.
    We have actually addressed that a number of times. I know 
you had to be out of the room but the----
    Mr. Kennedy. Apologies.
    Dr. Holdren. --President and the Administration are 
certainly not waging a war on coal, far from it as you point 
out. We are investing billions and billions of dollars in 
improving coal technologies with the understanding and the 
expectation that coal will continue for many decades to come to 
play a significant role in our electricity generating system.
    One of the things we noted was that under the proposed 
rules coal would still be generating 30 percent of U.S. 
electricity in 2030. That is a lot of electricity, it is a lot 
of coal, but we hope to do it much more cleanly.
    Mr. Kennedy. Ms. McCabe, anything to add?
    Ms. McCabe. No, I second it.
    Mr. Kennedy. Okay. I apologize for making you repeat 
yourself but I appreciate the fact that you did. Thanks very 
much and I yield back.
    Mr. Schweikert. Thank you, Mr. Kennedy.
    And I am going to recognize myself.
    And I would actually like to hand a couple minutes over to 
the good doctor, Dr. Bucshon.
    Mr. Bucshon. Thank you. I had another committee markup. We 
just reauthorized Amtrak over in Transportation, so my 
apologies for not being at the entire hearing.
    But I want a couple follow-ups. First of all, Ms. McCabe, I 
would like to invite you to my district for a public hearing on 
the new--or in fact any coal-producing state, if EPA could come 
into a--and listen to what the people in my district or other 
coal-producing states have to say, I am inviting you to my 
district to do that.
    Dr. Holdren, I am going to request from you that the White 
House and the EPA release all of the scientific information, 
including all of the data justifying the premise that is being 
promoted--that this regulation, the new power plant regulations 
will decrease the incidence of asthma and heart attacks, 
including all the medical background information. I have 
requested this before from Health and Human Services and others 
and they have hidden behind HIPAA regulations, but I would 
request that we get all that information to back up these 
claims.
    And also, as you admitted, there is a difference between 
particulate emission and CO<INF>2</INF> emission, and this 
hearing is primarily about CO<INF>2</INF> emission, and I will 
give you that there is a significant difference. And the 
comments I made earlier are primarily based on particulate 
information but also then you can't use that and say it is 
justifying CO<INF>2</INF> emission requirements.
    My final comment will be carbon capture and sequestration 
is not economically feasible and not commercially available for 
my state. Therefore, putting in place a regulation that 
requires it to comply also isn't economically feasible for my 
state. I understand the science behind it. I agree that 
industry and all of us should always be looking for better ways 
to burn coal, but the time frame and the assumptions that are 
made for this rule are off base for my state and 85 percent 
of--80 to 85 percent of our power is from coal. We are a huge 
manufacturing state. We are going to lose jobs. My district has 
every coalmine in the state. We have already--we are closing to 
power plants, we have closed one coal--two coalmines now, and I 
would implore you to look at that economic information.
    I yield back to the Chairman.
    Mr. Schweikert. Thank you, Doctor.
    And forgive also the comings and goings today. This is just 
a chaotic moment as we are trying to finish off this week and 
so all the running back and forth.
    I had two minutes left in my--and I will ask you to put 
that on the clock so we are studious in splitting the time.
    It is a conversation I would like to do in much greater 
depth and my point of reference is actually sort of the 
discussion of allocation of resources, so in some ways it is 
less about ACO<INF>2</INF>, the PM10, some of the NOX, some of 
the other--it is the allocation of resources and where we 
maximize benefits.
    Sitting in the same chairs about two months ago we had four 
researchers, all absolutely believed in the difficulties with 
ACO<INF>2</INF> and the environment, but when asked the 
question of what you would do for the next five, ten years, the 
allocation question was--and I was surprised at the responses. 
I would deal with invasive species. I would deal with the fish 
population and some others.
    So there was a real interesting allocation question, and I 
have great fear that much of sort of the discussion we are 
having around today may be driven by those who have invested in 
certain technologies and, as my father used to say, it is 
always about the money. Am I being--let me ask, at a high-level 
policy level, how much sort of moves into the discussion of are 
we driving the allocation of resources where we maximize 
benefit to our society and the environment?
    And that is actually I think more of a Ms. McCabe type 
question.
    Dr. Holdren. Actually, I am going to start and then I 
will----
    Mr. Schweikert. Should I flip it because----
    Dr. Holdren. --turn it over to Ms. McCabe. Yeah. I will 
flip it very quickly but allocation of course is always a big 
challenge. In the climate change domain the problem is that if 
we focus constantly on shorter-term priorities and push off the 
climate change steps that we need to take, it is going to be 
impossible to meet the 2 degree C target or even the----
    Mr. Schweikert. Doctor----
    Dr. Holdren. --3 degree C target----
    Mr. Schweikert. --there is actually a problem in that. If 
you and I go back to literature that I think even you were a 
participant in a decade ago, none of us expected the revolution 
that has happened in natural gas. Who would have ever thought 
we would have that and exceeded the Kyoto accords because of 
the long-term futures prices of natural gas? So sometimes that 
arrogance of knowing what tomorrow is were wrong. And I am--
this is rude to do; I would love to carry this conversation on 
in the future----
    Dr. Holdren. We should.
    Mr. Schweikert. I am now beyond----
    Dr. Holdren. We should.
    Mr. Schweikert. --my time and I have to run to another 
committee, so thank you. And I am going to actually hand over 
Chair so our Ranking Member can do her 5 minutes. Madam Ranking 
Member.
    Ms. Johnson. Thank you very much. And I have to apologize. 
I was one of those that had to go to another committee for a 
markup.
    But, Dr. Holden, as you are aware, the Administration's 
Council of Economic Advisors released a report in July which 
makes the economic case for addressing climate change. The main 
conclusion is that delaying action is costly. In fact, the 
report indicates that if the lack of action results in warming 
of 3 degrees Celsius above the preindustrial levels rather than 
2 degrees Celsius, then the increased economic damages to the 
United States could be as high as $150 billion annually.
    Now, I am a nurse and we have talked all about how much it 
costs and how many jobs, but I am not sure how much we have 
talked about how many lives that are affected if we don't clean 
this environment. In your testimony you mentioned a growing 
consensus among economists and others that there is a 
compelling case for making substantial investments to address 
climate change. Can you please describe the current state of 
the economic literature--excuse me--comparing the cost of 
action and inaction on climate change? Thank you.
    Dr. Holdren. Yes, thank you very much. I do expand on that 
at some length in my testimony. What has been happening in the 
economic literature of the past two decades is an increasing 
trend toward a strong consensus that we need to take action and 
we need to take action sooner rather than later precisely 
because of the kinds of finding that you cited. And by the way, 
there are other findings out there that point to even more 
alarming possibilities if we allow the temperature--the global 
average surface temperature of the atmosphere to go to three 
degrees Celsius or higher. The likelihood of tipping points 
leading to truly unmanageable change, that goes up as one goes 
into those domains and nobody really has a handle on what the 
upper limit of damages might be.
    Just from the standpoint of investment in prudent 
insurance, it makes sense to take steps now to reduce the 
likelihood of getting anywhere near those temperature regimes, 
and economists as well as natural scientists have really 
largely come to agreement about that.
    Ms. Johnson. Thank you very much. Lete me thank both of you 
for coming and simply say that while we might sit here with our 
heads in the dust or whatever, the damage goes on, and it is 
time for us to address the issue. And I appreciate you coming, 
I appreciate your steadfastness, and I certainly appreciate the 
work of EPA. Thank you. I yield back.
    Mr. Bridenstine. [Presiding] The gentlelady yields back.
    I am evidence that if you stay here long enough, they 
eventually give you the gavel.
    And I would like to thank the witnesses for being here and 
for your testimony and for all the Members who are left, which 
is one, for your questions. The Members of the Committee may 
have additional questions for you and we will ask you to 
respond to those questions in writing. The record will remain 
open for two weeks for additional comments and written 
questions from the Members.
    The witnesses are excused and the hearing is adjourned.
    
    [Whereupon, at 12:09 p.m., the Committee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


                   Answers to Post-Hearing Questions
Responses by the Honorable John Holdren

[GRAPHIC] [TIFF OMITTED] 

Responses by Ms. Janet McCabe

[GRAPHIC] [TIFF OMITTED] 

                              Appendix II

                              ----------                              


                   Additional Material for the Record



       Article submitted by Ranking Member Eddie Bernice Johnson
       
[GRAPHIC] [TIFF OMITTED] 

          Article submitted by Representative Suzanne Bonamici
[GRAPHIC] [TIFF OMITTED] 

           Articles submitted by Representative Eric Swalwell
[GRAPHIC] [TIFF OMITTED] 

          Article submitted by Representative Donna F. Edwards
[GRAPHIC] [TIFF OMITTED] 

                                 [all]
                                 
</pre></body></html>
